<html>
<title> - THE COOS, LOWER UMPQUA, AND SIUSLAW RESTORATION AMENDMENTS ACT OF 2003</title>
<body><pre>[Senate Hearing 108-522]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 108-522

     THE COOS, LOWER UMPQUA, AND SIUSLAW RESTORATION AMENDMENTS ACT

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   ON

                                 S. 868

TO AMEND THE COOS, LOWER UMPQUA, AND SIUSLAW RESTORATION ACT TO PROVIDE 
   FOR THE CULTURAL RESTORATION AND ECONOMIC SELF-SUFFICIENCY OF THE 
   CONFEDERATED TRIBES OF COOS, LOWER UMPQUA, AND SIUSLAW INDIANS OF 
                                 OREGON

                               ----------                              

                             MARCH 30, 2004
                             WASHINGTON, DC

     THE COOS, LOWER UMPQUA, AND SIUSLAW RESTORATION AMENDMENTS ACT


                    U.S. GOVERNMENT PRINTING OFFICE
93-040                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001



                                                        S. Hrg. 108-522

     THE COOS, LOWER UMPQUA, AND SIUSLAW RESTORATION AMENDMENTS ACT

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   ON

                                 S. 868

TO AMEND THE COOS, LOWER UMPQUA, AND SIUSLAW RESTORATION ACT TO PROVIDE 
   FOR THE CULTURAL RESTORATION AND ECONOMIC SELF-SUFFICIENCY OF THE 
   CONFEDERATED TRIBES OF COOS, LOWER UMPQUA, AND SIUSLAW INDIANS OF 
                                 OREGON

                               __________

                             MARCH 30, 2004
                             WASHINGTON, DC



                      COMMITTEE ON INDIAN AFFAIRS

              BEN NIGHTHORSE CAMPBELL, Colorado, Chairman

                DANIEL K. INOUYE, Hawaii, Vice Chairman

JOHN McCAIN, Arizona,                KENT CONRAD, North Dakota
PETE V. DOMENICI, New Mexico         HARRY REID, Nevada
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
ORRIN G. HATCH, Utah                 BYRON L. DORGAN, North Dakota
JAMES M. INHOFE, Oklahoma            TIM JOHNSON, South Dakota
GORDON SMITH, Oregon                 MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska

         Paul Moorehead, Majority Staff Director/Chief Counsel

        Patricia M. Zell, Minority Staff Director/Chief Counsel

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page
S. 868, text of..................................................     3
Statements:
    Hoiles, Cheryl, vice chairman, tribal council, Confederated 
      Tribes of the Coos, Lower Umpqua and Siuslaw Indians, Coos 
      Bay, OR....................................................    25
    Rey, Mark, Under Secretary, Natural Resources and 
      Environment, USDA..........................................    23
    Smith. Hon. Gordon, U.S. Senator from Oregon.................     1
    Smith, George, tribal forester...............................    25
    Somday, Francis, executive officer...........................    25
    Wakeland, Peter, Director of Natural Resources, The 
      Confederated Tribes of Grand Ronde, Grand Ronde, OR........    31
    Ward, Jay, conservation director, Oregon Natural Resources 
      Council, Portland, OR......................................    34

                                Appendix

Prepared statements:
    Gordon, John C., chairman, Interforest LLC...................    41
    Hall, Tex, president, National Congress of American Indians 
      (with resolution)..........................................    54
    Hoiles, Cheryl...............................................    58
    Rey, Mark....................................................    45
    Wakeland, Peter..............................................    46
    Ward, Jay (with attachment)..................................    48
Additional material submitted for the record:
    Letters in support of the forest restoration plan for the 
      Coos, Lower Umpqua, and Siuslaw Indian.....................    79

 
 THE COOS, LOWER UMPQUA, AND SIUSLAW RESTORATION AMENDMENTS ACT OF 2003

                              ----------                              


                        TUESDAY, MARCH 30, 2004


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The committee met, pursuant to other business, at 9:52 a.m. 
in room 485, Senate Russell Building, Hon. Gordon Smith (acting 
chairman of the committee) presiding.
    Present: Senator Smith.

    STATEMENT OF HON. GORDON SMITH, U.S. SENATOR FROM OREGON

    Senator Smith. Gentlemen, if I can have you all take your 
places, today the committee is considering S. 868, The Coos, 
Lower Umpqua, and Siuslaw Restoration Amendments Act of 2003. 
This legislation would effectively establish a land base for 
the Confederated Tribes of Coos, Lower Umpqua, and Siuslaw 
Indians.
    Many years ago when the tribes first approached me I told 
them I could only support a proposal that met with broad local 
support and that was a net positive for tribal members and for 
Oregon, as a whole. S. 868 is the result of years of 
discussions with the tribes, the Oregon Congressional 
Delegation, local communities, and environmentalists. That 
cooperation is reflected in a well-balanced plan that embraces 
the ecological needs of the forests and the struggling local 
economy. The forest area that is being considered in my 
legislation lies within the Siuslaw National Forest.
    Under the Clinton northwest forest plan, the Siuslaw is 
largely set aside in late successional reserves, LSR's. Timber 
management in these areas can only be used to accelerate the 
development of old growth characteristics for spotted owl 
habitat. Since most of the forest was heavily logged in the 
past, it is now so choked with second-generation timber stands 
that it is incompatible with wildlife needs. Both environmental 
groups and the forest products industry have advocated 
extensive thinning projects on the Siuslaw National Forest to 
create productive wildlife habitat and timber for local 
economies.
    New stewardship contracting authorities allowed the Forest 
Service to move forward on a small number of thinning projects 
in the Siuslaw. Even the Oregon Natural Resources Council, 
which is represented in today's panel, has recently stated 
that, ``We do see the need for work to move these forests 
ahead.'' But that work is not moving forward with any 
noticeable speed. The Siuslaw National Forest has identified 
300,000 acres in need of thinning, yet only about 2,000 acres 
are being treated per year based on current staffing levels. 
Thus, it will take the Forest Service 150 years to meet its 
management objectives for the Siuslaw National Forest. 
Certainly that is not nearly fast enough for a State that's 
burning more spotted owl habitat than it is growing.
    This legislation offers a change in course. The tribes 
propose doing precisely what the Forest Service wants to do, 
but is limited by procedural analysis and funding shortfalls. 
By allowing the tribes to manage a small portion of the Siuslaw 
National Forest, thinning projects would be accelerated. Not 
only would this help meet the needs of threatened species, but 
would provide revenue for the tribe for social services and 
jobs for the local economy. Very rarely do I find common ground 
between the Federal Government, loggers, environmentalists, and 
the tribes. Through their patience and perseverance, the tribes 
have accomplished more on that front than I thought possible. 
They've gained support from their local elected officials. 
They've gained support from some environmental groups and from 
the forest products industry, and now they are looking for 
support from their Federal Government.
    If the Federal Government is serious about tribal self-
determination and honest about their record of tribal forest 
management, then I believe that this proposal can gain 
traction. To that extent, I hope today's hearing will bring us 
all closer to doing what is right for the tribes and for the 
land.
    [Text of S. 868 follows:]
      
  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Senator Smith. Now I'd like to invite USDA Under Secretary 
Mark Rey to make a statement. Good to have you here, Mark.

 STATEMENT OF MARK REY, UNDER SECRETARY, NATURAL RESOURCES AND 
                       ENVIRONMENT, USDA

    Mr. Rey. Thank you, Senator Smith. Thank you for the 
opportunity to present the Department's views on S. 868, the 
Coos, Lower Umpqua, and Siuslaw Restoration Amendments Act of 
2003. The Department supports the general goals of cultural 
restoration and the economic benefits that S. 868 would 
provide; however, we have some concerns about several aspects 
of the bill--in particular, the land transfer from the Siuslaw 
National Forest of the magnitude envisioned in the bill. We'd 
like to have further discussions with you, with the delegation, 
the tribe, and the committee on the complex issues presented by 
the bill and potential alternative approaches to achieve the 
stated goals of the legislation.
    Under the provisions of S. 868, land would be managed to 
the extent practicable to achieve management and restoration 
goals established for nearby or adjacent Federal lands; 
however, because management would no longer be subject to the 
National Forest Management Act, that's not guaranteed. The 
proposed transfer could fragment relatively contiguous 
watersheds and could reduce the Forest Service's flexibility 
for management of the remaining acreage of the Siuslaw National 
Forest.
    Additionally, there's some irony in the timing of this 
particular proposal relative to the progress that the 
Administration and the forest are making in bringing the 
Siuslaw into more active management. We are accelerating the 
rate of thinning in the late successional reserves and have 
issued a long-term stewardship contract as authorized by an act 
of Congress just roughly 1 year ago in the area that would be 
conveyed to the tribe under the terms of the legislation. So 
one of the things that we'd like to work with you to make sure 
is that that accelerating rate of progress in active management 
isn't delayed or disrupted if we are going to convey the land 
involved to the tribe and out of Forest Service ownership.
    We are mindful of the potential benefits this bill would 
provide to the people of the Confederated Tribes. At the same 
time, we'd like to look at alternatives to achieve those 
benefits with different measures than those provided for in the 
legislation, and we'd like to continue discussions with the 
committee, with you, and the tribe to explore options of that 
sort.
    With that, I'd be happy to submit the balance of my 
testimony for the record and answer any questions that you've 
got.
    Senator Smith. Thank you, Mark.
    [Prepared statement of Mr. Rey appears in appendix.]
    Senator Smith. What I hear you saying is that the 
Administration has questions, is not opposed, but willing to 
work with us on this.
    Mr. Rey. That's correct.
    Senator Smith. And as I understand your concerns, they're 
primarily about how you reconcile the forest health initiative 
and the ongoing thinning, which, as I understand, may provide 
funding for about 40 percent of the restoration of that forest, 
how to reconcile that with also transferring it to the tribe.
    Mr. Rey. Correct. And also the question of how to 
effectuate the transfer of management on the ground from the 
Forest Service to the tribe and what, if any, the Forest 
Service's continuing role could or should be in carrying out 
some of the management activities that have already been 
initiated since it's not apparent on the face of it, at least 
in our discussions, albeit limited discussions so far with the 
tribe, that they could pick up tomorrow what we have underway 
today if, in fact, we concluded a conveyance to that extent.
    So it may be that one option is to look to making the tribe 
a partner in management concomitant with the conveyance or 
independent of it, depending on how we want to proceed. Another 
option might be to convey the land but have the Forest Service 
continue under contract to perform the functions that they 
already have underway to make sure that those functions aren't 
disrupted. I'm not saying those are necessarily better 
alternatives to a simple conveyance, but they are things that 
we'd like to explore with you and with the tribe a little bit 
further as we go forward.
    Senator Smith. Mark, as you know better than anyone, 
President Clinton's northwest forest plan promised harvest of a 
billion board feet per year, and that is not likely to be 
accomplished without an aggressive thinning program. I assume 
that this occurring on the Siuslaw would actually be very 
helpful to the Forest Service in achieving President Clinton's 
objective.
    Mr. Rey. No question about that. Again, the irony here is 
that just late last week we announced two amendments to the 
northwest forest plan that we think are critical to achieving 
President Bush's commitment to redeem the promise that the 
previous Administration made about sustainable harvest levels 
off the Clinton forest plan, so to some extent we think we're 
poised to do that work now. That doesn't speak one way or 
another to our responsibilities to the tribe in terms of giving 
them a reservation in recognition of their tribal rights, but 
there is an irony in the sense that just at the time that the 
Forest Service has finally been given the tools to get the job 
done we are essentially looking at alternatives to take the job 
away from them.
    Senator Smith. Can you speak to firsthand knowledge of its 
condition in meeting the objectives of providing habitat for 
spotted owls?
    Mr. Rey. There are spotted owls on the forest, but the 
Siuslaw is by and large a second growth forest. There is 
relatively little--in fact, very little--old growth remaining. 
It is a second growth forest. Much of it is in a condition 
where thinning is necessary, either to increase growth rates, 
if timber production is a goal on a particular acreage, or, in 
the case of late successional reserves, which have been 
developed within the forest to begin to get those areas to 
resemble late successional characteristics. Without that 
thinning, then they won't become better spotted owl habitat 
than they currently are, which is largely marginal.
    Senator Smith. So it really is a convergence of actually 
harvesting to help spotted owls?
    Mr. Rey. In this case, yes.
    Senator Smith. I wish that were more widely understood, 
because I've seen this forest, as well, and I've seen the 
tangle of second growth characteristics, which is so dense and 
so thick that all that's being prepared there is a huge fire, 
and having little to do with a healthy environment where old 
growth can thrive and spotted owls can live.
    Mr. Rey. Right. And in the case of this particular system, 
that would likely be a stand replacement fire.
    Senator Smith. In your testimony you warn of the precedent 
this legislation would set for other proposals to transfer 
large tracts of national forest system land to tribes. Is there 
an acreage level that your Department would feel more 
comfortable with?
    Mr. Rey. Well, I think there's some fluidity in these 
proposals. In the ones that Congress has most recently enacted, 
the acreage amounts for the Grand Ronde and the Coquille Tribe 
have been substantially less. Now, in those case there weren't 
management prescriptions attached to the conveyance. In this 
case the management prescriptions involve a somewhat less 
intense management across what would therefore be justified as 
a larger landscape.
    I don't know that there's a magic acreage number. I think 
what we'd be more interested in looking at is: In the course of 
making sure that the progress that's already being made isn't 
disrupted, is there a better way to build the relationship 
between the tribe and the Forest Service during the conveyance 
so that we don't see a disruption in the progress that is being 
made.
    Senator Smith. Mr. Rey, thank you very much for your 
service, the Forest Service, and for being here today and 
speaking to this legislation.
    Mr. Rey. We look forward to working with you as the 
legislation progresses through the Congressional process.
    Senator Smith. Thank you. I always look forward to working 
with you, and I think there is a community of interest here 
that can be served for the tribes, for the environment, for the 
economy of Oregon, and for spotted owls. Thank you very much.
    Mr. Rey. Thanks.
    Senator Smith. We'll call forward Cheryl Hoile. Welcome. 
Thank you all for being here. Cheryl, we look forward to your 
testimony.

    STATEMENT OF CHERYL HOILE, VICE CHAIR, TRIBAL COUNCIL, 
   CONFEDERATED TRIBES OF THE COOS, LOWER UMPQUA AND SIUSLAW 
INDIANS, COOS BAY, OR, ACCOMPANIED BY FRANCIS SOMDAY, EXECUTIVE 
    OFFICER TO THE TRIBE; AND GEORGE SMITH, TRIBAL FORESTER

    Ms. Hoile. My name is Cheryl Hoiles. I'm vice chairman of 
the Confederated Tribes of the Coos, Lower Umpqua, and Siuslaw 
Indians and a Siuslaw tribal member. Supporting this testimony 
today is the entire tribal council. On behalf of the 761 tribal 
members, we thank you for holding this hearing on S. 868. We 
have been waiting and working for many years to regain a 
portion of our homelands. We are the only tribe in Oregon that 
has never received any land or compensation for the unjust 
taking of our lands 150 years ago. S. 868, introduced by 
Senator Gordon Smith, will right this wrong. We urge the 
committee to look favorably on this bill and move it through 
the Senate quickly.
    The Confederated Tribes would like to thank Senator Smith 
for his strong leadership and advocacy on behalf of the tribes 
and tribal issues. You are truly our friend.
    I would like to enter my written testimony into the record, 
along with several attachments. Included in these attachments 
is written testimony by Dr. John Gordon.
    Senator Smith. They will be received and included in the 
record.
    Ms. Hoile. Thank you. I see Dr. Gordon had testified on 
behalf of IFMAT today. The Confederated Tribes would like to 
thank Dr. Gordon for his support and guidance on this endeavor.
    Our history is checkered with sadness and broken promises. 
Our people inhabited the land along the Oregon coast on the 
Coos River, Lower Umpqua River, and Siuslaw Watersheds. Much of 
this area is now within the Siuslaw National Forest. In 1855 we 
signed the Empire Treaty with the Federal Government, which 
would have compensated us for our land and allowed us to live 
on a small portion of it. The treaty was read twice on the U.S. 
Senate floor and then somehow lost. Instead of honoring the 
provisions of the treaty, the U.S. Government marched our 
ancestors to the Coast Reservation and held them for 19 years 
between 1856 and 1875. Administration of this portion of the 
reservation was handled through the Umpqua and Alsea 
Subagencies. The Alsea Subagency was closed by act of Congress 
in March 1875. The lands restored to public domain included two 
units of the coast reservation. The law required consent of the 
tribes living in the unit.
    The minutes of the conference held at Yachats on June 17, 
1875, confirm that none of the Coos, Lower Umpqua, Siuslaw, or 
Alsea concurred with the closure of the agency and opening the 
units to the Euro-American settlement. The action proceed 
without tribal consent. Our land was taken from us and offered 
for pioneer settlement. By the time our tribal members were 
freed, one-half had died and our land was inhabited.
    Between 1917 and 1956, the Confederated Tribes were 
irregularly provided Federal services by the superintendent of 
the Chemawa Indian School and the agent of the Siletz-Grand 
Ronde agency.
    In 1940, Louis J. Simpson and William G. Robertson donated 
to the United States a tract of 6.1 acres in Empire, OR, for 
the benefit of the local tribes. In 1941 an Indian division of 
the Civilian Conservation Corps built a tribal hall for the 
Confederated Tribes, and it is still in use today.
    In 1954, by Presidential order, although opposed by the 
Confederated Tribes, our tribal status was terminated. My 
grandfather, who was chairman at the time, had to find the 
strength to inform our people. The next several decades were 
difficult ones for our members. Lack of education and economic 
opportunities and racism by some of our white neighbors took 
its toll.
    In 1984, led by the efforts of Senator Mark Hatfield, 
Congress restored our tribe to Federal recognition. No 
financial compensation or land was granted to us at that time. 
Efforts to regain even a portion of our homelands has always 
been in the forefront of our efforts, and with restoration they 
heightened.
    In the development of this proposal, we have worked with 
tribal membership to establish goals and criteria for the 
tribal land use. The lands must be located in the ancestral 
territory of the tribes. The land characteristics and existing 
resource conditions must represent, as closely as possible, 
what was found in aboriginal forests. The land and the 
resources must be culturally significant to the tribes. The 
land and the resources must contribute to the economic self-
sufficiency of the tribes.
    We also believe that restoration of our tribal homelands 
must not negatively impact the existing public rights and uses 
of the land.
    A provision of the tribe's restoration act provides for 
establishment of a reservation so long as it is at no cost to 
the Federal Government. Compliance with this provision requires 
the tribal land base be restored from lands which the Federal 
Government already owns. The 62,865 acres proposed for transfer 
are from the lands of the Siuslaw National Forest to be held in 
trust for our tribal members, are within the boundaries of our 
ancestral homeland and will meet all of our goals and criteria. 
These lands contain the highest degree of culturally 
significant areas of any land between the Siuslaw and Umpqua 
Rivers. The portions of the Siuslaw East and the Siuslaw West 
Tracts which border the Siuslaw River have a concentration of 
old village sites. There are also prior Indian allotments, both 
along the river and in the interior of these tracts.
    The waterfall areas of Sweet Creek and Beaver Creek in the 
Siuslaw East Tract and Kentucky Falls on the North Fork of the 
Smith River in the Lakes Tract have spiritual significance to 
the tribes. The testimony that we have submitted for the record 
provides detailed information regarding these sites and their 
significance to the Confederated Tribes. Placing these lands in 
trust for the tribes will allow us to protect and utilize these 
sites for cultural restoration. The majority of these sites are 
in protected riparian areas or other areas with rugged, 
inoperable terrain, and cultural restoration objectives for the 
selected tracts will have minimal, if any, impact on potential 
economic activities.
    The lands designated in the bill are part of the Oregon 
Coast Mountain Range. They are characterized by steep slopes 
and many streams. The mild, wet climate and fertile soils 
provide some of the best forest growing conditions in the 
world. The landscape includes highly productive Douglas-fir 
forest, superb habitat for a variety of fish and wildlife, 
including the bald eagle, marbled murrelet, northern spotted 
owl, coho salmon, and pacific lamprey. These species are 
candidates for listing or are listed as threatened under the 
Endangered Species Act.
    Our management will focus on restoring late successional 
forests and watersheds. This tribal management direction is 
consistent with existing goals for management of adjacent 
Siuslaw National Forest lands. Timber will be harvested by 
thinning to restore habitat and enhance cultural values on 
thousands of acres of conifer plantations. Thinning will also 
reduce the risk of catastrophic fire. Additional resources will 
be dedicated to watershed restoration projects. In general, 
state-of-the-art science and adaptive learning approach will be 
employed in the management of all tribal lands.
    The land proposed for transfer will also help us to achieve 
our economic needs, as well. It is important to note, while 
this moves us in the direction of self-sufficiency, it does 
not, in and of itself, meet all of our financial needs. We 
anticipate that we will net approximately $1.1 million annually 
from these lands. Revenue-generating activities are either 
underway or in the planning stage, and in combination with 
timber harvest, non-timber forest products, ecotourism 
activities, watershed restoration, and habitat restoration 
activities, we hope to meet our overall current budget needs of 
$8 million.
    Moneys gained from the forest will help provide health and 
dental care to our members, low income housing, meet the needs 
of our elders, and provide scholarships for our youth. We 
anticipate that jobs generated from the transfer of these lands 
in ecotourism, watershed restoration, and forest management 
will help break the cycle of unemployment and poverty among our 
tribal members.
    The members of the Confederated Tribes consider themselves 
not only Native Americans but also, Americans. We are proud of 
our heritage and we are proud to live and work in our local 
communities. Because we view ourselves as good neighbors, we 
undertook an extensive public outreach program to both explain 
our efforts to regain a small portion of our homeland and to 
assure our neighbors that our activities on these lands would 
benefit the greater community. We have held over 250 meetings 
with all the possible stakeholders since 1997. These meetings 
were focused on reviewing various land proposals, seeking 
input, and as a result ultimately modifying our request. We 
held eight open house and community meetings throughout the 
areas, as well. We have met with the general public, adjacent 
land owners, watershed councils, recreation interests, local 
elected officials, Northwest tribes, national tribal 
organizations, environmental and economic groups, and timber 
interests, just to name a few.
    We have compiled letters of support, which I have asked, 
along with other documents, to be included in the record. 
Included in this compendium of documents are letters from the 
Affiliated Tribes of the Northwest, the National Congress of 
American Indians, the cities of North Bend and Coos Bay and 
Douglas, Lane and Coos County Commissioners, and letters from 
every State legislator in the area, local environmental 
organizations, and local and regional timber associations. We 
are not a wealthy tribe, and this effort has strained our 
resources.
    For 7 years we have worked continuously with the members of 
the Oregon Delegation to develop this land restoration 
proposal. We have made significant accommodations to address 
the concerns that have been raised by the elected officials. We 
are hopeful that the support of the full delegation will be 
forthcoming as this bill moves forward.
    During the public process, we have addressed the concerns 
we have heard and we believe that we have gained the trust of 
the public. We have committed--and it is reflected in the 
bill--that public access will be maintained for hunting, 
fishing, recreation, and transportation. The lands will be 
managed to protect endangered species and managed consistent 
with current adjacent Federal land strategies. There will be no 
gaming on these lands. Export of unprocessed logs from these 
lands is prohibited. Timber from these lands will be equally 
available to all domestic processors through a competitive bid 
process. The tribes will not construct and operate a sawmill on 
these lands. County revenues will not be affected when the land 
is transferred.
    In addition, we have had subsequent meetings with a number 
of environmental organizations and would be willing to have 
greater detail on management strategies included in the bill as 
well as a greater and specific role for public input prior to 
the final action on management activities.
    In conclusion, Mr. Chairman and members of the committee, 
we ask that you move swiftly on this legislation and restore a 
very small but very significant portion of our homeland. We 
have been working long and hard, but we cannot proceed without 
your active support on the passage of this legislation.
    Joining me today are Francis Somday, our tribal 
administrator, and George Smith, our forest management 
consultant. They will be assisting me with answering any 
questions you may have.
    Thank you.
    [Prepared statement of Ms. Hoile appears in appendix.]
    Senator Smith. Thank you very much, Cheryl. As one who has 
worked with the tribe for years now to try to get to this point 
and to success, I have come to realize that the emotion that we 
heard in your voice has very little to do with the economics of 
this but a great deal to do with the emotional dignity that 
comes with this restoration. Can you speak to that a little 
more?
    Ms. Hoiles. I'll try. This land is very important to us 
culturally and spiritually. It means a lot to us. It is going 
to give us the opportunity for future economic opportunities 
for us through educating our young, being able to provide 
services for our elders, and just feel the pride of having our 
own lands.
    Senator Smith. I share that hope and that pride and what 
that would do for the tribe. I am privileged to sit in the 
Senate seat of Mark Hatfield and to continue on with his work 
on behalf of the tribe. I'm most anxious to see this succeed.
    For the record, others have criticized this proposal that 
I've introduced. They will point out that other western Oregon 
tribes have had less than 10,000 acres restored to them, and 
yet in this bill I've proposed 63,000 acres. How would you 
answer? If you were me, how would you answer that criticism?
    Ms. Hoiles. Well, we are three tribes. Our original lands 
were 1.6 million. This is just 5 percent of that original land.
    Senator Smith. That's a good answer. You know the co-
authors of the northwest forest plan. One of them is Jerry 
Franklin. He's considered one of the leading experts on old 
growth forests. I wonder if you can, for the record, describe 
what your interaction has been with Jerry Franklin.
    Ms. Hoiles. Well, I am aware that we have had interaction 
with him, but George would really be able to address that 
question.
    Mr. Smith. Mr. Chairman, Dr. Franklin was part of the 
original project team that put this proposal together, and his 
involvement was primarily a focus to ensure that our management 
strategy for the plan complied with the goals and was 
consistent with the northwest forest plan, and particularly 
late successional management. Dr. Franklin's contributions are 
cited in the front part of the plan.
    Senator Smith. All right. I want to publicly thank the 
tribes for the way they have included the local community. When 
we first started talking about this, I sensed a tremendous 
amount of local resistance to this proposal, and I think that 
the way that you have reached out to allay fears of local 
officials, local folks who also are trying to make a living, 
and included them in terms of how this would benefit the entire 
community is truly being reflected in the amount of support 
that there is from all segments of society on the south coast, 
and I truly am grateful for that.
    Can you speak for the record--you have a little bit--about 
how you think that this will affect the public in the wider 
Coos area.
    Ms. Hoiles. Well, the effect it will have directly on the 
public will be minimal and transparent. They will still be able 
to access for fishing, hunting, hiking, biking. It would be no 
different than any other regulation that the Federal Government 
had placed on it if we need to rope off for bad roads or 
whatever. If we identify culturally or spiritually sensitive 
area, then we would go through the process.
    Senator Smith. Right.
    Ms. Hoiles. So it would be minimal.
    Mr. Smith. I might add, Senator, in support of the local 
communities, the employment that would be generated from 
accelerating the thinning operations on these parcels of land 
would certainly create additional jobs and employment and 
revenue for the communities, and also the tribe has access to 
funds to do restoration work on these lands, and that would 
also support local communities.
    Senator Smith. and in your restoration, you clearly are 
cutting timber, but you are doing so with a view to protecting 
endangered species?
    Mr. Smith. That is correct, Mr. Chairman. The thinning 
program that the tribe would be carrying out under its 
management strategy is consistent with what the Forest Service 
is now doing and the kind of activity that Under Secretary Rey 
described. I guess the biggest difference is that the tribe--
this would be the only land that they would have, the 60,000 
acres, and your comments focused on the fact that there's 
300,000 acres out there to thin, so the tribe would be 
launching an accelerated program to get this thinning done.
    Senator Smith. Have you given any thought to Secretary 
Rey's comments of how this transition would be managed? And do 
you feel like that could be--the concerns of the Department of 
Agriculture, could they be satisfied in a transition from one 
to the tribe?
    Mr. Smith. I certainly do. The tribe has an excellent 
relationship with the Siuslaw National Forest, and we have 
worked very closely initially with Jim Furnish and now with 
Gloria Brown, who is the current forest supervisor. We have a 
memorandum of agreement now in place for the Siuslaw National 
Forest that would lead into a smooth transition of management.
    Senator Smith. Thank you. Any closing comments you may want 
to make?
    [No response.]
    Senator Smith. With that, we thank our second panel.
    Ms. Hoiles. Thank you.
    Senator Smith. We sure appreciate your testimony.
    We call forward our third panel, which will consist of 
Peter Wakeland and Jay Ward.
    Peter, welcome. You can lead off the third panel.

STATEMENT OF PETER WAKELAND, DIRECTOR OF NATURAL RESOURCES, THE 
      CONFEDERATED TRIBES OF GRAND RONDE, GRAND RONDE, OR

    Mr. Wakeland. Thank you very much, Senator. I'd like to 
thank the chairman and the committee, particularly you, Senator 
Smith, for inviting me to testify before you today regarding 
the legislation to provide the Confederated Tribes of Coos, 
Lower Umpqua, and Siuslaw with a tribal forest.
    I'm the natural resources manager for the Confederated 
Tribes of Grand Ronde and I am a Grand Ronde tribal member. I 
am also a veteran staffer of the U.S. Senate, having worked on 
American Indian issues, chemical weapons, demilitarization, and 
Social Security reform.
    Like the Coos, my tribe went through a long legislative 
process to have land restored to us for cultural, ecological, 
and economic uses. I hope that the experience that the Grand 
Ronde went through and the quality of land management since 
then will be relevant to policymakers in the current people. 
Like the Coos, Congress terminated the Government's 
relationship with the Grand Ronde Tribes in 1954, and what was 
left of the original 69,000 acre reservation was gone entirely. 
In 1988, with the support of Senator Hatfield and this 
committee, the tribes were provided 9,811 acres of our original 
reservation. In 1994, an additional 241 acres were added.
    While lawsuits and procedural paralysis have crippled 
neighboring Federal lands, the Grand Ronde has been able to 
meet the promise of President Clinton's northwest forest plan 
to protect the environment and produce a sustainable level of 
timber. Timber harvested from our reservation feeds local 
mills, which in turn creates jobs and supports local economies. 
Because of this, the tribes play an important role in the lives 
of tribal and community members. In just the last decade, the 
tribe completed numerous stream enhancement projects--projects 
that have created high-quality habitats and opened up over 20 
miles of spawning and rearing reaches of reservation streams. 
In 1995, we began seeing coho salmon returning to the 
reservation.
    Tribal forest stewardship has been so effective that we 
have entered into a stewardship agreement with the Forest 
Service and the BLM to help manage 10,000 acres of their land, 
to help find creative ways of carrying out the northwest forest 
plan. The Grand Ronde has only been able to achieve this level 
of success because we have the flexibility that the Forest 
Service and BLM do not. Like the proposal for the Coos tribal 
forest, the Grand Ronde tribal forest is managed under the 
National Indian Forest Resources Management Act in cooperation 
with the Bureau of Indian Affairs [BIA]. Contrary to claims 
that the BIA commits egregious malfeasance in its timber 
management, the Grand Ronde have maintained a successful 
partnership with the BIA, and I would discourage any 
categorical depictions of Indian forest management, especially 
in light of the previous hearing on IFMAT II.
    Fortunately, the Grand Ronde is not saddled with managing 
under the northwest forest plan, yet our forest is healthy and 
provides a wide range of habitats. Because of all the 
litigation associated with the northwest forest plan, it is my 
opinion that it has proven to be a dismal failure and has had 
detrimental effects on the overall health of western forests, 
including landscape level loss of spotted owl habitat to 
catastrophic fire. Consider, too, that catastrophic fires also 
alarmingly degrade fisheries habitats, and while the lands at 
issue before you lie in the coast range where fire incidents 
are less frequent, we know that western forests do, in fact, 
burn, and lack of sound management increases the likelihood 
that they will.
    Because of our success in managing our lands, I pose that 
tribal forest management is perhaps more responsive to the 
needs of the land. Returning land to Indian tribes, whether 
small in acreage or large, is truly a matter between the 
Federal Government and the tribes with which they are working, 
a government-to-government process. We are all aware that there 
are concerns on all sides whenever Federal lands are at issue, 
and while the Coos have done an outstanding job of garnering 
support, this particular process really must strive clear of 
being driven solely by popularity.
    Opponents of the bill before this committee may assert that 
their claim to the land supersedes the claim of Indian people, 
and this creates a dilemma for our elected leaders. Opponents 
may also present arguments against the transfer of land to the 
tribes and explain how devastating the transfer would be to the 
environment, particularly to spotted owl and anadromous fish, 
but this claim ignores the successes of the Grand Ronde that 
has faced the same management challenges, the same endangered 
species, and the same general geographic area.
    The Coos Forest plan is based on restoring late 
successional habitat for the spotted owl, which is precisely 
what the environmental community has been advocating for the 
Siuslaw National Forest, yet many in their community still have 
strong objection to this legislation. So what, I ask, is truly 
at the heart of their opposition to tribal control of ancestral 
lands? Perhaps they simply don't want to see any timber 
harvested for any reason for any people. Perhaps they would be 
satisfied to see the Coos, Lower Umpqua, and Siuslaw remain 
landless and without an economy. At the end of the day, I 
suggest that at least a portion of their opposition lies in 
control. If they cannot control the decisions the tribe makes, 
then they oppose the plan, and no doubt they will present a 
number of arguments, but I submit that their arguments are 
speculative and emotional in nature, aimed at raising fears, 
not grounded in fact.
    The Coos, Lower Umpqua, and Siuslaw Tribes are the only 
federally recognized tribes in Oregon that do not have any land 
to call their own. It would be just to return to them a portion 
of their ancestral lands, and equally just in allowing them to 
write their own plan, a plan that would balance the needs of 
the tribes with the protection and enhancement of tribal forest 
assets. I implore you not to ignore these tribes' right to have 
lands restored to them.
    Supporting the bill is the right course of action, and time 
will prove, as it has with the Grand Ronde, that it was the 
best decision. The tribes' needs will be satisfied and the 
environment will be made more resilient, healthy, and well 
functioning.
    My thanks to you again for the privilege of speaking before 
you today. I will be happy to answer questions.
    Senator Smith. Thank you, Peter.
    [Prepared statement of Mr. Wakeland appears in appendix.]
    Senator Smith. Peter, your lands, the Grand Ronde, they 
border much of the Forest Service land, do they not?
    Mr. Wakeland. That's correct, they do.
    Senator Smith. Any subjective opinion as to condition of 
those lands versus the Federal lands?
    Mr. Wakeland. I think it has already been touched on a 
number of times today. The Siuslaw National Forest by and large 
truly is a forest of second growth Douglas fir, and over the 
past couple of decades there has been a tremendous lack of 
management, in my opinion. These forest lands are at the point 
now where we may see a stand replacement catastrophic fire if 
we don't do something, and we've seen it all across the west in 
other similar stands. If you don't manage, you're going to have 
a problem. Siuslaw is there.
    Senator Smith. Do the Grand Ronde care about the wildlife 
and fish in that forest?
    Mr. Wakeland. Absolutely. Absolutely. You know, the waters 
that we inherit in our reservation start on the eastern slopes 
of the Siuslaw National Forest and run into the reservation, so 
absolutely we care.
    Senator Smith. And your lands would also border these 
proposed in the Siuslaw National Forest, and I'm wondering if 
your working relationship with the Forest Service would be 
something of a model for the Coos Tribe as they ramp up their 
stewardship.
    Mr. Wakeland. I think so. I think we have been successful 
to this point in working with the stewardship agreement with 
the Forest Service, so I absolutely would think that would be a 
benefit.
    Senator Smith. Did you hear similar concerns expressed 
about the Grand Ronde taking over these lands that you're now 
hearing about the proposal for the Coos?
    Mr. Wakeland. There was absolute concern when the 
conveyance of our lands was at issue, especially with the 
timber industry. They were very, very concerned that if the 
Grand Ronde took over the land that the timber harvest would be 
affected or that there would be exporting of timber. That 
didn't--we don't export. There is a timber harvest, but it is 
at a sustainable level with all kinds of environmental concerns 
taken into account, and I think that the environmental 
community has been pleased with the way we have managed the 
forest.
    Senator Smith. So, as you have experienced it in the Grand 
Ronde, the local officials, the public, the environmental 
community, even the timber community, and if the fish and 
wildlife could talk, everybody is happy with what you're doing?
    Mr. Wakeland. Absolutely. You know, we just got done 
writing our next 10-year management plan, and we were 
definitely expecting to receive a lot more comment than we did, 
but apparently we have been doing a good enough job that people 
were comfortable with that, and our next 10 years is down on 
paper and we are ready to go.
    Senator Smith. Thank you very much, Peter.
    Mr. Wakeland. Thank you.
    Senator Smith. Jay Ward, we're glad to have you here and we 
welcome your testimony.

 STATEMENT OF JAY WARD, CONSERVATION DIRECTOR, OREGON NATURAL 
                RESOURCES COUNCIL, PORTLAND, OR

    Mr. Ward. Good morning, Senator Smith, esteemed members of 
the Grand Ronde, Coos, Lower Umpqua, and Siuslaw Tribes. I, 
too, wish to thank you for the opportunity to appear before you 
today and address you on S. 868. With my presence here today, I 
am also representing the Oregon Coalition for the Public Lands. 
It is a diverse group of constituents in Oregon who are 
interested in the protection and preservation of Oregon's 
public forests, wilderness, refuges, parks, deserts, and 
grasslands, as well as the rights of all citizens to 
sustainably use and enjoy these lands.
    While my gratitude to you, Mr. Chairman, is certainly 
genuine, I will admit to having conflicting feelings regarding 
the remedy proposed in S. 868. As you, yourself, pointed out on 
the floor of the Senate last year, our Government's treatment 
of the people of the Confederated Tribes of the Coos, Lower 
Umpqua, and Siuslaw is nothing any of us should be proud of. 
There can be no argument that, due to the shortsighted and 
often racist attitudes of many of Oregon's early settlers, the 
Coos, Lower Umpqua, and Siuslaw peoples were forced from the 
ancestral homelands, confined in abysmal conditions, and 
subjected to numerous wrongs during the ensuing 150 years. We 
commend you for your recognition of these historical wrongs 
that have been perpetrated upon the people of the Coos, Lower 
Umpqua, and Siuslaw. Furthermore, we applaud you and your staff 
for the efforts you've expended in formulating a plan to 
address those wrongs.
    Mr. Chairman, we agree with you that these wrongs are 
deserving of redress; however, we must disagree with the 
proposed solution, and therefore respectfully oppose S. 868 as 
currently worded.
    As you've heard, the forests the Confederated Tribes seek 
to acquire constitute much of the Federal lands in the coast 
range between the Umpqua and Siuslaw Rivers, is some of the 
most productive forest land in the western United States, and 
represents vital habitat for Pacific salmon, spotted owls, 
marbled murrelets, and hundreds of other species associated 
with mature and old growth forests.
    Ten roadless areas suitable for wilderness protection are 
located within these public forests, and approximately 25,000 
acres of old growth grace the landscape.
    As a national forest, the Siuslaw is also recovering from 
over 50 years of well-meaning but misguided forestry practices. 
Thankfully, since the application of the landmark 1994 
northwest forest plan, the employees and partners of the 
Siuslaw National Forest have been working toward that vision. 
Under the able leadership of forest supervisors Jim Furnish and 
Gloria Brown, the Siuslaw has become a national leader in 
meeting a multitude of management goals. In fact, last June 
Chief Bosworth honored the Siuslaw National Forest staff and 
personnel with the triple crown of forest management awards. 
These awards illustrate the excellent work that the current 
staff are doing to recreate a healthier Siuslaw National 
Forest. In fact, Oregon Natural Resources Council staff has 
been working with the Siuslaw National Forest personnel to plan 
and implement restorative projects, as you pointed out in your 
remarks earlier.
    We have been able to establish and maintain this 
relationship because both we and the Forest Service understand 
that crucial Federal environmental laws such as the National 
Forest Management Act are a backstop to any deviation from the 
restorative vision currently being articulated by the Siuslaw 
National Forest personnel.
    America's Siuslaw National Forest belongs, we feel, to all 
Americans, whether by Native Americans, native-born Americans, 
or naturalized citizens, these public lands are appreciated for 
their scenic beauty, recreational opportunities, and their 
invaluable ecological role in conserving wildlife.
    Currently, all Americans have the right to visit, traverse, 
hunt, fish in, and enjoy these national forests; however, once 
lands pass out of the national forest system there will be no 
unalterable rights of access to these forests. A change in 
leadership could suspend access to particular forests and 
citizens would be compelled to enter into expensive mediation 
and may or may not have legal standing to challenge that 
suspension. Indeed, it is because of potential loss of access 
and possible changes to existing game management policies that 
the Oregon Hunters Association joined the Oregon Coalition for 
Public Lands.
    S. 868 would transfer over 62,000 acres of timber worth 
billions of dollars to be held in trust by the BIA for the use 
and benefit of approximately 760 tribal members. The most 
recent such transfer was the transfer of 5,400 acres of Federal 
forest to the 695 members of the Coquille Tribe in 1996. Should 
S. 868 become law, what would be the response of other tribes 
with smaller holdings, such as the Coquille, Cow Creek, and 
Siletz, who have, as I stated, remarkably less acreage.
    While the Forest Service is an agency with imperfect 
history, it is charged by Congress to manage public lands with 
conservation values as part of its mandate. The BIA has no such 
mandate. It is the responsibility of the Forest Service to 
sustain diversity, health, and productivity of the Nation's 
forests and grasslands. It is the responsibility of the BIA to 
develop forest land and lease assets on the land to the 
economic benefit of American Indians and Alaska Natives. 
Application of landmark environmental laws like the National 
Forest Management Act will be lost if these public forests are 
no longer managed by the Forest Service on behalf of all 
Americans.
    In conclusion, Mr. Chairman, the American people deserve an 
open public discussion of alternate means to right these 
historical wrongs. Creating a tribal homeland for the 760 
members of the Confederated Tribes of the Coos, Lower Umpqua, 
and Siuslaw may be a part of a just and equitable solution. The 
first step has already been taken. The Government has 
recognized the injustice. As a second step, we respectfully 
suggest that Congress appoint a commission to determine the 
extent to which the Coos, Lower Umpqua, and Siuslaw people have 
been wronged, and that said commission identify a range of 
alternatives to correct that injustice, and those alternatives 
could include statutory co-management relationship, 
acknowledging the tribes' historic ties to the lands, while 
maintaining the protective sweep of Federal environmental 
safeguards. Or, if the commission sees fit to restore lands to 
the tribes, it could suggest legislation and provide funds to 
the tribes to purchase private forest lands, large tracts of 
which are within the tribes' ancestral homelands.
    Senator Smith, we support the efforts of the Confederated 
Tribes of the Coos, Lower Umpqua, and Siuslaw to become 
economically self sufficient. At the same time, we oppose 
legislation which would turn over the Siuslaw National Forest 
lands to the BIA and limit or move landmark environmental laws 
that currently benefit all Americans.
    Given the egregious treatment of the tribes by both 
Government and non-governmental bodies, we are eager to work 
together to arrive at an equitable solution.
    Thank you for the opportunity to present our views. I would 
be pleased to answer any questions you have.
    Senator Smith. Thank you, Jay.
    [Prepared statement of Mr. Ward appears in appendix.]
    Senator Smith. If we took the suggestion of ONRC and we 
established this commission to determine if wrongs had been 
committed and what remedies might be due these three tribes, 
would a remedy be a management contract or some land? And if 
so, how much land?
    Mr. Ward. Senator, I think the amount of land is probably 
best determined by such a commission. I think we would be 
supportive of a proposal of this scale were it not to come from 
national forest lands. As far as the co-management relationship 
goes, that would seem to me it could be pretty flexible, could 
involve hiring preferences of tribal members to do some of the 
restoration work that is currently be produced by the Siuslaw 
National Forest personnel.
    Senator Smith. You'd probably agree with me though that a 
management contract doesn't give you the same sense of 
ownership as fee simple?
    Mr. Ward. I would, sir.
    Senator Smith. And I'm sure you can appreciate the 
emotional need and the emotional tie the tribes have to this 
land.
    Mr. Ward. I do. I can tell you, on a personal level this is 
one of the more challenging conflicts within our organization 
right now. We have had productive and friendly relationships 
with a number of northwest tribes working to restore ecological 
functions to our ecosystems, so this is a tough one for us.
    Senator Smith. Peter, for the record, how long ago were the 
Grand Ronde lands conveyed back to the tribe?
    Mr. Wakeland. It happened back in 1988.
    Senator Smith. And do you recall, Jay, what the position of 
ONRC was to that?
    Mr. Ward. I don't. Although I lived in Oregon during that 
time, I was actually not an ONRC affiliate.
    Senator Smith. I've received letters of support for this 
bill from the Pacific Rivers Council, Cascadia Wildlands 
Project, and from other environmental organizations who are 
supportive of this conveyance and confident in the tribes' 
management of it. Do they have a different view of forest 
management than the ONRC?
    Mr. Ward. I would say we probably agree on general forest 
management principles, but I wouldn't care to speak to them as 
to their motivations on why they would consider backing the 
bill. I would suggest that at some level this is a leap of 
faith, and some people are more interested and willing to make 
that leap than others.
    Senator Smith. You've stated in your testimony that ``as a 
national forest, the Siuslaw is also recovering from over 50 
years of well-meaning but misguided forestry practices.'' 
You've also noticed that they're giving out awards for these 
practices. How do you reconcile those positions?
    Mr. Ward. Well, I would say that the awards that have been 
given out in the last year are not the same I spoke of in the 
previous 50 years. I think since Mr. Furnish has been the 
supervisor and Ms. Brown after him, the work that they are 
doing and that our staff has been involved with is probably 
among the best of any national forest in the country.
    Senator Smith. And I think, in fairness to our Forest 
Service employees, I would agree they are doing a good job now. 
But I don't think you are maintaining that these are productive 
forest lands on Siuslaw at this point.
    Mr. Ward. I think they are quite productive. We might be 
talking about producing different things.
    Senator Smith. Okay. All right. Right now Native Americans 
manage 18 million acres of forest land in this country. Do your 
objections to tribal timber management apply to all those 
lands, or just to these lands?
    Mr. Ward. Well, as these are currently national forest 
lands, I think it applies mainly to these lands. I think if the 
tribes--for instance, the Warm Spring tribes that manage their 
land I believe are currently certified by the Forest 
Stewardship Council as doing ecologically restorative and 
productive work, but I wouldn't care to comment on tribal 
management for other tribes that I'm not familiar with.
    Senator Smith. Pete, you heard Jay say you've got to take a 
leap of faith here. Did you have to get environmental groups to 
take a leap of faith with the Grand Ronde transfer?
    Mr. Wakeland. I think that there probably definitely was 
that leap of faith at the time, and over the last 15 years 
tribal forest management has evolved. We are doing things now 
that we just think are just good for the land and for wildlife, 
not at the behest of anybody telling us we had to, but because 
that's the way we feel that tribal lands should be managed. So 
I would probably say that the leap of faith probably paid off.
    Senator Smith. I would, too. I think the proof is in the 
forest, and that's why, frankly, a lot of the leap of faith for 
me is not a big leap, because I think the Native American 
peoples in their bones feel stewardship that, frankly, is of 
more value than law, and I think their conduct is up here and 
the law is right here. That's what underpins my support of this 
is I think public ownership is overblown often. It is 
important, but I think private ownership where peoples, and 
especially native tribes have a piece of the rock, the results 
are fabulous for people and species of all kinds.
    Jay, would your organization feel differently about S. 868 
if it were amended to provide for an alternative process for 
public involvement--in other words, appeals--than is currently 
provided for under BIA forestry regulations?
    Mr. Ward. We would consider that to be an improvement, 
certainly, Senator. I think if the bill were amended in that 
manner but yet still transferred the title out of National 
Forest Service, U.S. Forest Service, Department of Agriculture 
hands and into Interior and trust or BIA we would still oppose 
that.
    Senator Smith. You'd still oppose?
    Mr. Ward. Yes.
    Senator Smith. Yours was transferred in that way, was it 
not, Pete?
    Mr. Wakeland. Yes; it was, Senator.
    Senator Smith. Jay, do you support thinning of LSR's as an 
alternative to harvesting of old growth?
    Mr. Ward. We believe that thinning, whether it be in matrix 
lands or LSR's, if done properly--and properly is certainly 
something that is up for debate right now--but careful, 
variable density thinning is defensible. We think LSR's are 
probably the last place to start, and there are a lot of 
plantations that are out there in the matrix that would be a 
better place, but in the long term we could certainly envision 
something of that nature.
    Senator Smith. Is there anything about the way the tribes 
are thinning now that bothers the ONRC?
    Mr. Ward. Well, to be candid, the Coos, Lower Umpqua, and 
Siuslaw Tribes, to the best of my knowledge, are not thinning 
right now, simply because they're----
    Senator Smith. But, for example, next door in the Grand 
Ronde?
    Mr. Ward. I will plead ignorance to the condition of the 
land of the Grand Ronde. I will say that thinning at the 
Siuslaw National Forest is doing right now and some of range or 
districts on the Willamette has been pretty productive and 
ecologically defensible.
    Senator Smith. Your testimony references roadless areas 
within the acreage proposed in my legislation. Since there are 
no inventoried roadless areas within the area, do you have a 
definition that's different than the Forest Service?
    Mr. Ward. We do. The Forest Service has in the past a 
5,000-acre minimum threshold on it. We've put 1,000 acres, 
which is about a 1\1/2\-square, so we would consider a 1\1/2\-
mile roadless--or 1,000-acre roadless area to be worthy of 
wilderness protection, whether the Forest Service may be less 
eager to do so.
    Senator Smith. Thank you. Any other questions?
    [No response.]
    Senator Smith. Thank you, Jay, for being here. And thank 
you, Peter, for the example you have set in the Grand Ronde 
Tribes. We appreciate that. And I simply want to express to the 
Coos and Lower Umpqua and Siuslaw Tribes that this is a work in 
progress. It is a work making great progress. This hearing is a 
good step forward, and I look forward to the day when we can be 
around a presidential desk when this can occur and the tribal 
members are crying tears of joy instead of tears of shame. I 
say that both because I have that hope for these tribes, but 
also because I believe that the leap of faith that is being 
asked of us is not a very big one, and I think that the benefit 
will be a very great one to the tribe, to the environment, and 
to the local community and to the State of Oregon.
    With that, we are adjourned.
    [Whereupon, at 10:50 a.m., the committee was adjourned, to 
reconvene at the call of the Chair.]


=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


    Prepared Statement of John C. Gordon, Chairman, Interforest LLC

    Summary
    Tribes, the local communities and the country will be well served 
by the designation of lands described in S. 868 as the Coos Tribal 
Forest for the Confederated Tribes of Coos, Lower Umpqua, and Siuslaw 
Indians. Active management for biodiversity, watershed protection, and 
timber and non-timber forest products of the kind proposed by the 
tribes is the highest and best use of these lands. Indian tribes have a 
strong record of land stewardship in the face of great difficulties. 
The tribes live with the consequences of their forest management 
decisions in ways that few other groups do. All values, including 
cultural and spiritual ones, are thus incorporated into management 
plans and actions. The establishment of tribal management of lands held 
in trust by the U.S. Government is a unique way to achieve integrated 
land management that benefits all parties efficiently. Like management 
on all other categories of forest ownership, the quality of forest 
stewardship on Indian lands varies from reservation to reservation. 
Some Indian lands are models of ecosystem management, while other 
tribal forests have experienced lower quality management in the past, 
due to mistaken policies, scarce resources, or poor alignment between 
tribal and Federal management goals. Recent reports [IFMAT II and I] 
indicate that tribal management of forestlands is improving and is 
often innovative. The National Indian Forest Resources Management Act 
is one of the most recent and most modem Federal laws concerning forest 
management. Uniquely, this law provides for independent review of 
management on Indian forestlands at 10-year intervals. It allows tribes 
to balance all forest values in management and encourages landscape 
scale management through cooperation with adjacent landowners. S. 868 
will be a significant positive step in insuring sustainable management 
of the tribal and U.S. forest estate.
    Background and Qualifications
    I am John C. Gordon, chairman of Interforest LLC, a sustainable 
forestry consulting firm active in creating forest management 
strategies and plans, and in doing forest certification. I am also 
Pinchot Professor of Forestry and Environmental Studies Emeritus and 
former Dean of the Yale School of Forestry and Environmental Studies. 
Earlier, I was head of the Department of Forest Science at the College 
of Forestry, Oregon State University, Professor of Forestry at Iowa 
State University and a scientist with the USDA Forest Service. I have 
chaired and served with numerous national committees and panels, 
including the Seventh American Forest Congress, the Scientific Panel on 
Late-Successional Forest Ecosystems, Research and Resource Management 
in the National Park System, and three National Research Council/
National Academy reports. I have chaired both of the Indian Forest 
Resource Management Teams [IFMAT I and II] reporting under the National 
Indian Forest Management Act, helped develop forest management 
strategies for the Coquille Tribe and the Klamath Tribes, and have 
lectured widely and testified before Congress on Indian forestry.
    Indians as Forest Managers
    Indians have lived intimately with forests in North America for 
thousands of years. However, modem forest management by Indians, using 
their concepts of nature and cultural views, is just emerging as tribes 
regain the power to set goals and manage their forests to achieve them. 
The recent emergence has little to do with Indian views of forests or 
their capability for managing them. Rather it is a consequence of two 
centuries of experimentation by the U.S. Government on how to deal with 
tribal people.
    The making and breaking of treaties, the movement of tribes to new 
and common locations, the establishment and disestablishment of 
reservations, the allotment of forests to individuals, and the 
management of Indian forests by Federal agencies all have shaped the 
Indian forests of the early 21st century. Those tribes, who retained 
some of their original land base or got some other land, are now 
beginning, through the process of self-determination, to reassert 
Indian goals and management for their forests. Tribes whose land was 
entirely taken seek to reestablish some portion of their homeland and 
to begin to manage it as Indian land. This process of reassertion of 
tribal management has had exciting results where it has gone forward. 
Despite a documented shortage of resources compared to all other 
ownership categories, much innovative and effective management is now 
occurring on tribal lands. This is partly because Indian forests are 
different from public and industrial forests, in that they are the 
homelands of the tribe with strong cultural and spiritual significance 
to the tribal members. It is also because the Indian people live with 
the environmental and economic consequences of their forest management 
decisions more intimately than most other people in the U.S. [IFMAT-
1993]. The forests of the Menominee in Wisconsin were among the first 
forests in North America to be certified as sustainably managed by the 
Forest Stewardship Council principles. Other tribes have since been so 
certified, and a recent pre-certification review found that a high 
fraction of the tribes reviewed was ready to proceed to certification. 
Other reservations, notably the Colville, Yakima, and Warm Springs are 
working effectively and in a balanced way to solve the fire and forest 
health problems endemic to the American West. Some of the most highly 
developed uneven-aged management anywhere is found on Indian 
forestlands [IFMAT-1993]. Thus, many Indian forests are places of 
experimentation and innovation and serve as some of the first examples 
of the modem concept of adaptive management. It is true that some 
Indian lands have not had the best quality of management (as have some 
lands in all other categories of ownership) in the past, due to 
mistaken policies, scarce resources, or poor alignment between tribal 
and management goals. Recent reports [IFMAT II and I] indicate that 
tribal management of forestlands is improving rapidly and is on the 
whole effective. To quote from IFMAT II: ``There has been substantial 
progress toward sustainability in Indian forests since the time of 
IFMAT I. . . . Progress has been made in responding to forest health 
problems, in implementing innovative silviculture, and forest 
certification. The improvement in tribal forest management planning and 
implementation has been substantial. On the whole, the management of 
Indian forests is different and better than it was 10 years ago, 
largely through the efforts of tribal organizations and dedicated BIA 
staff.'' Thus, while achieving substantial improvements in habitat and 
ecosystem characteristics, the harvest of timber on Indian lands has 
been maintained at a sustainable level over the past decade [IFMAT II]. 
The National Indian Forest Resources Management Act is one of the most 
recent and most modem Federal laws concerning forest management. 
Uniquely, this law provides for independent review of management on 
Indian forestlands at 10-year intervals. It allows and encourages 
Tribes to set goals and to balance all forest values in management. It 
encourages landscape scale management through cooperation with adjacent 
landowners. Thus, there is strong evidence that the Confederated Tribes 
will well and sustainably manage lands restored to them under S. 868.
    The trust Relationship
    Title to Indian lands is held by the United States in trust for the 
beneficial use of the Indian owners. Direct management of Indian 
forests until the early 1970's was done by the Federal agency regarded 
as the principal trustee [Bureau of Indian Affairs]. The Indian Self-
Determination Act passed by the Congress in 1972 provided the authority 
and impetus for tribes to have a much larger role in the management of 
Indian forests. Today, the majority of Indian forests are managed 
directly by Tribal Governments with the United States providing Federal 
oversight, and the number of Indian forests so managed is increasing 
rapidly through a process called ``compacting''. IFMAT II: ``Tribal 
organizations are increasingly participating in the management of their 
forests through tribal, rather than BIA, forest and natural resource 
management organizations. The gap between the visions that Indians 
express for their forests and the way, in terms of direction, they are 
managed is narrowing due to greater tribal participation in forest 
management and greater alignment between tribal and BIA approaches to 
management. Direct tribal management has enabled tribes to emphasize 
their specific goals in setting management direction for Indian forests 
and this has fostered an integrative, holistic approach recognizing a 
multiplicity of use and values. For most Indian forests, tribally 
focused management has resulted in increased consideration of cultural 
and spiritual values in planning and implementing forest management 
strategies. It has also resulted in a greater alignment between the 
expressed wishes of tribal members and management objectives and 
practices [IFMAT II]. In general, this alignment has produced a careful 
balance between economic and ecological values sought by Tribes. 
Extreme management options tend to be excluded.
    Proposed Management of the Coos Tribal Forest
    Lands to be re-designated as Coos Tribal Forest are 62,865 acres of 
Federal lands located in the Oregon Coast Range adjacent to the Pacific 
Ocean. Coast Range forests are characterized by steep slopes and are 
heavily dissected by streams, but the mild, wet climate and deep, 
fertile soils provide some of the best forest growing conditions in the 
world. The landscape of the proposed Coos Tribal Forest includes highly 
productive Douglas-fir forests that provide superb habitat for a 
variety of fish and wildlife including the bald eagle, marbled 
murrelet, northern spotted owl and Coho salmon, all federally listed as 
threatened or endangered.
    Commercial logging and road building began on these lands in the 
early 1900's and peaked over a 20-year period between the 1950's and 
the 1970's. The high level of timber harvesting and harsh logging 
practices (including sidecast road building, large clearcuts, and hot 
slash bums) caused significant erosion and degradation of wildlife and 
fish habitat. Today, the lands of the proposed Coos Tribal Forest 
include 20,000 acres of young conifer plantations created by past 
clearcut logging and replanting. These are quite homogenous, largely 
single tree species plantations that can be restored to higher 
diversity and better wildlife and fish habitat by thinning (partial 
cutting intended to concentrate growth on fewer stems and thus shorten 
the time needed to produce large trees). The stands of larger trees 
thus created are better habitat for the threatened species. Murrelets 
nest in larger trees and northern spotted owls both nest and hunt most 
effectively in stands of larger trees. Also, some of the larger trees 
along streams fall in and across the steam course, and provide the pool 
and run structure important to Coho salmon spawning and rearing 
habitat. Thus, the plantations already established provide a ready 
opportunity for management both for timber and for habitat improvement. 
This alignment provides one of the important bases for management 
strategy proposed for the Coos Tribal Forest (see below).
    Tribal Forest Management Goals and Objectives
    Tribal goals for the Coos Tribal Forest are threefold. The 
overarching goal is to restore tribal culture by reconnecting tribal 
people to their ancestral homelands and to protect sites and resources 
that are significant components of tribal culture. The second goal is 
to restore the health of ancestral watersheds by blending, Native 
American values with the latest scientific methods for ecosystem 
restoration and sustainable forest management. The third goal is to 
contribute to tribal self-sufficiency and to provide economic benefits 
to local communities through jobs and revenues generated from watershed 
restoration work, eco-tourism development and sustainable harvest and 
use of forest products.
    Tribal forest management will focus on restoring late-successional 
forests (more mature forests that are presumed similar to those that 
arise in nature) that are consistent with the existing goals for 
management of adjacent Siuslaw NF lands. Timber will be harvested by 
thinning (see above) to restore habitat and enhance cultural values on 
thousands of acres of conifer plantations. This, along with adjacent 
areas of NF will create a landscape devoted to large trees and improved 
habitat. Thinning will also reduce the risk of catastrophic fires. 
Variable density thinning, in which the clumped nature of trees arising 
naturally from seed is mimicked, will be used to restore stand spatial 
complexity, a variety of habitat values, and to promote the development 
of forest floor, canopy gap and other species significant to tribal 
culture. In general, state-of-the-art\1\ science and an adaptive, 
learning approach will be employed in the management of all tribal 
lands.
---------------------------------------------------------------------------
    \1\ Science Update. Restoring Complexity: Second-Growth Forests and 
Habitat Diversity. PNW Research Station, May 2002.
---------------------------------------------------------------------------
    Under provisions of S. 868, a special fund is established for 
watershed restoration activities. The establishment of this special 
account is a unique requirement for the Coos Tribal Forest and attests 
to the tribes' commitment to restore the health of their ancestral 
watersheds. S. 868 also will establish Special Management Areas [SMA's] 
for existing old-growth stands and areas with unique scenic and wild 
land values such as the existing Kentucky Falls Special Interest Area 
and the Beaver Creek and Sweet Creek Falls and stream corridors. These 
SMA's will be managed as undeveloped areas in accordance with existing 
Federal standards and guidelines of the Siuslaw NF Plan. Tribal 
management direction for the SMA's will provide an added layer of 
protection for tribal cultural sites and resources.
    The Coos Tribal Forest will comply with Federal environmental laws 
including the Endangered Species Act.
    Benefits to Local Governments
    These will include greater local control and decisionmaking to 
better align management with local goals, greater management 
flexibility to accommodate new knowledge or changed conditions, 
increased local economic activity, and greater cultural enrichment and 
diversity.
    Tribal governments are located in communities within or near their 
land holdings and exercise local control and decisionmaking over 
management of their lands. Land management policies and actions are 
developed and implemented at the local level with greater opportunity 
to be sensitive to needs and concerns of communities and citizens of 
the area. This ``grass roots'' tribal management is vastly different 
from the Washington, DC directed management occurring on Federal lands. 
This ``top down'' Federal management process provides only restricted 
and highly variable opportunity for local participation in 
decisionmaking and has rarely been sufficiently responsive to needs and 
concerns of local communities in the eyes of those communities.
    Tribes have more flexibility in managing their lands within the 
framework of applicable Federal laws. Local tribal control enables 
streamlined decisionmaking, while the Federal agencies are burdened by 
multiple layers of bureaucracy, endless review and ultimate 
decisionmaking at the top level of the organization.
    Indian forestlands are managed under the National Indian Forest 
Resources Management Act [NIFRMA--P.L. 101-630, Nov. 1990), a modern 
forest management statute. This Federal statute provides tribes with a 
high degree of flexibility in setting management direction and 
implementing forest practices on Indian lands, while constraining 
management to sustainable practices that are monitored as part of the 
Trust responsibility of the U.S. Government. The management guidelines 
in NIFRMA allow tribes to achieve balance in meeting the needs of 
forest health and providing economic benefits to tribal governments and 
local communities. These guidelines also enable and encourage Tribes to 
coordinate management of their lands with adjacent landowners, 
government and private, to meet common landscape goals.
    The activities of tribal governments and their business ventures 
provide direct benefits to local and regional economies. Tribal 
forestlands provide a stable economic base for support of tribal 
government programs and development funds for business enterprises. 
Funds for operation of tribal programs and revenues generated by tribal 
businesses are largely spent and invested in local communities. Lands 
restored to the Confederated Tribes from the Siuslaw National Forest 
will provide revenue and job opportunities from at least three uses:
  <bullet> sustainable harvest and use of timber and non-timber forest 
            products,
  <bullet> recreation and eco-tourism activities, and
  <bullet> watershed restoration and salmon recovery work.
    Both tribal and non-tribal governments and citizens will benefit 
from these land-use and restoration activities. A specific example is 
the tribes' plan to reestablish its Blue Earth Products business 
enterprise at a location near the proposed restored lands in western 
Douglas or Lane County. This business fills a market niche for food and 
floral products that reflect Oregon's coastal Indian culture. Many of 
the products or ingredients will be gathered from the tribes' restored 
forestlands. The gathering of raw materials, product processing and 
packaging, and sales will generate new revenue and job opportunities 
for this economically depressed area of the Oregon coast.
    The spiritual values, beliefs and cultural traditions of Indian 
people are embodied in a special relationship to the earth and the 
natural world. Reestablishment of a portion of the tribes' ancestral 
homelands is vital to restoration of tribal culture. It will enable 
current tribal members to reconnect spiritually and physically to the 
land their ancestors inhabited for centuries and which shaped their 
culture. The tribes' cultural and recreational use of the restored 
lands will include an Interpretive Center where the Tribes' history and 
culture will be shared with citizens of the local area and tourists 
visiting the Oregon coast. Opportunities for cultural enrichment and 
fostering understanding of cultural diversity is a special benefit 
offered to an area with tribal land holdings and the presence of Indian 
people.
    Concluding Remarks
    Tribes, the local communities and the country will be well served 
by the establishment of the forest areas designated by S. 868 as the 
Coos Tribal Forest for the Confederated Tribes of Coos, Lower Umpqua 
and Siuslaw Indians. Active management for biodiversity, watershed 
protection, and timber and non-timber forest products of the kind 
proposed by the tribes is the highest and best use of these lands based 
on their biological and physical characteristics and their cultural and 
land use histories. Besides being fair treatment of current Tribal 
members, restoration will recognize an important reality: healthy 
forests managed by those who live in and around them provide enduring 
benefits to the larger society, that is, to all of us.
    Literature Consulted
    Confederated Tribes of Coos, Lower Umpqua, and Siuslaw Indians. 
2002. Reservation Plan and Forest Land Restoration Proposal. (Revised 
June 2002). 25 pp.
    The Second Indian Forest Management Assessment Team (IFMAT II). 
2003. An Assessment of Indian Forests and Forest Management in the 
United States. Executive Summary. Intertribal Timber Council, Portland, 
OR. 22 pp.
    The First Indian Forest Management Assessment Team (IFMAT I). 1993. 
An Assessment of Indian Forests and Forest Management in the United 
States. Intertribal Timber Council, Portland, OR. 89 pp.
    Science Update. Restoring Complexity: Second-Growth Forests and 
Habitat Diversity. PNW Research Station, May 2002.
                                 ______
                                 

Prepared Statement of Mark Rey, Under Secretary, Natural Resources and 
                 Environment, Department of Agriculture

    Mr. Chairman, thank you for this opportunity to present the 
Department's views on S. 868, the Coos, Lower Umpqua, and Siuslaw 
Restoration Amendments Act of 2003. I am Mark Rey, Under Secretary, 
Natural Resources and Environment.
    While the Department agrees with the general goals of cultural 
restoration and economic benefits that S. 868 would provide, we have 
some concerns about aspects of the bill and could not support it as 
introduced. In particular, the Department would not support a land 
transfer from the Siuslaw National Forest of the magnitude envisioned 
in this bill. We would like to have further discussion with the 
committee on the complex issues presented by the bill and potential 
alternative approaches to achieve the stated goals.
    S. 868 would transfer approximately 62,865 acres of land from the 
Siuslaw National Forest to be held in trust by the Bureau of Indian 
Affairs [BIA] for the long-term use and benefit of the Confederated 
Tribes of Coos, Lower Umpqua, and Siuslaw Indians [the ``Confederated 
Tribes''] as the Coos Tribal Forest. The transfer would be subject to 
valid existing rights, the continued enforcement of State laws, with 
continuation of public access.
    Under S. 868, the Coos Tribal Forest would be managed in accordance 
with the National Indian Forest Resources Management Act, retain all 
endangered species critical habitat designations, and be managed 
consistently with management and restoration goals of Federal land in 
the area. Revenue from the sale of forest products would be distributed 
for the benefit of tribal members, would continue to be subject to 
payments to counties, and for the first 15 years, 20 percent of 
revenues would be dedicated to a watershed restoration account. The 
bill calls for a land exchange program for the first years following 
transfer, and directs the Forest Service to provide assistance in the 
development of a Forest management plan and transition of management 
operations for the Forest.
    The Forest Service manages the national forest system lands and 
resources entrusted to its care for the benefit of the general public, 
while respecting the special trust relationship of the United States 
with Indian tribes. Tribes have been culturally tied to the land and 
its resources for thousands of years. The Forest Service and tribes 
share many common values and interests that can contribute toward the 
common goal of resource stewardship.
    Federal law and policy provide for government to government 
relationships with Indian tribes that respect tribal sovereignty and 
honor tribal interests. The Forest Service is taking measures to 
improve relationships with all Indian tribes, including new policy 
direction regarding consultation, access to sites and products of 
traditional and cultural interest, repatriation of funerary objects, 
and emphasis on contracting, grant, and research opportunities. We have 
consulted with the Confederated Tribes over the past several years in 
land management matters. We anticipate that our relationship with the 
Confederated Tribes will continue in the spirit of mutual trust that 
has already been established.
    The Siuslaw National Forest is actively managing the lands being 
considered in S. 868, and has made considerable investments to improve 
resource conditions in the proposed transfer area. The lands are part 
of the Northwest Forest Plan, which guides the management of 24 million 
acres of Federal lands, including all or parts of 17 National Forests. 
Most (93 percent) of the lands considered in the bill are classified as 
Late Successional Reserves [LSR's] under the Plan. These lands are 
managed through thinning treatments to achieve and maintain a 
functional, interacting, late-successional and old growth forest 
ecosystem. To achieve the goals of habitat enhancement and movement 
toward old growth conditions, the Siuslaw National Forest awarded and 
sold commercial thinning products on 1,039 acres in 2003 and is 
planning the sale of additional commercial thinning products on 1,770 
acres within the area considered for transfer. Two-thirds of the area 
is within the Siuslaw Basin Stewardship Restoration Pilot, which 
provides the Forest with authority to test new approaches of resource 
management to work with local communities and benefit the land. About 
12 million board feet of timber will be offered in 2004 under this 
pilot.
    The remaining 7 percent of the proposed transfer lands are 
classified under the Northwest Forest Plan as Matrix, most of it in 
riparian reserve. While Matrix includes non-forested areas, most timber 
harvest would be conducted in that portion of the matrix with suitable 
forest lands. The timber stands within the area include 19,806 acres of 
plantations and 42,758 acres of natural stands in various age classes, 
8,400 acres of which is mature conifer.
    In recent years, the Forest Service has purchased over 2,000 acres 
of land in the lower reaches of riparian areas that provide critical 
connectivity to salmon spawning habitat. The Siuslaw National Forest 
has been investing in stream restoration to improve this habitat over 
the past several years.
    The area includes six trailheads, with 12 miles of hiking trails, 
and more currently under construction. One trail leads to the scenic 
twin waterfalls at Kentucky Falls and another leads to the very popular 
Sweet Creek Falls. The Forest maintains nearly 200 miles of roads in 
the area. A variety of cultural resources are found there, including 
sites of former homesteads, ranger stations, lookout sites, the Sunset 
Wagon Road, and other historic resources.
    The proposed bill would transfer approximately 10 percent of lands 
from the Siuslaw National Forest to create the Coos Tribal Forest. The 
proposal is unusual in that it limits the Confederated Tribe's autonomy 
in managing the new forest by including provisions relating to law 
enforcement, regulations, and public access, among others. Land would 
be managed, to the extent practicable, to achieve management and 
restoration goals established for nearby or adjacent Federal land. 
However, because management would no longer be subject to the National 
Forest Management Act, this is not guaranteed. The proposed transfer 
would fragment relatively contiguous watersheds and would significantly 
reduce the Forest Service's flexibility for management of the Siuslaw 
National Forest.
    There is another issue of concern to us, of which this bill is only 
one small part-that is the precedent it would set for additional 
proposals for large land transfers from other National Forests to other 
tribes, where there may be limited offsetting circumstances that 
warrant such actions. While the Department would not support the 
transfer of such a large amount of land from the National Forest 
System, in a case such as this, and without offsetting national 
benefits, we are mindful of the potential benefits this bill would 
provide to the people of the Confederated Tribes. We would like to 
continue discussions with the committee, Senator Smith, and the 
Confederated Tribes to explore options to the proposed bill.
    I will be pleased to answer any questions that the committee may 
have.
                                 ______
                                 

  Prepared Statement of Peter M. Wakeland, Natural Resources Manager, 
                 Confederated Tribes of the Grand Ronde

    I would like to thank the chairman and the committee, particularly 
Senator Smith, for inviting me to testify before you today regarding 
legislation to provide the Confederated Tribes of the Coos, Lower 
Umpqua and Siuslaw with a Tribal Forest.
    I am the Natural Resources Manager for the Confederated Tribes of 
the Grand Ronde, and I am a Grand Ronde tribal member. Our tribal 
members are the descendants of 5 tribes and more than 20 bands of 
Indian people including the Nehalem, Tillamook, Nestuca, Salmon River, 
Rogue River, Molalla, Kalapuya, Umpqua, and Chasta. I am also a veteran 
staffer of the U.S. Senate, having worked on American Indian issues, 
chemical weapons demilitarization, and social security reform.
    Like the Coos, my tribes went through a long legislative process to 
have land restored to us for cultural, ecological and economic uses. I 
hope that the experience the Grand Ronde went through, and the quality 
of our land management since then, will be relevant to policymakers in 
the current proposal. More importantly, I want to dispel the myths and 
misconceptions about Tribal forest management that a few continue to 
harbor.
    Like the Coos, Congress terminated the U.S. Government's 
relationship with the Grand Ronde Tribes in 1954, and what was left of 
the original 69,000 acre reservation was gone entirely. The Grand Ronde 
Tribes were stripped of their reservation lands, but not of their 
spirit. In 1983, our status as a tribe was restored by the Government. 
This opened the door for regaining a portion of the land that had been 
taken from us. In 1988, with the support of U.S. Senator Mark O. 
Hatfield and this committee, the tribes were provided 9,811 acres of 
our original reservation. In 1994, an additional 241 acres were added 
to the reservation.
    It is meaningful in the context of this hearing to point out that 
in the 15 years since our forest was restored to us, the Grand Ronde 
have exceeded the expectations of environmentalists, local communities, 
and the forest products industry.
    While lawsuits and procedural paralysis have crippled neighboring 
Federal lands, the Grand Ronde has been able to meet the promise of 
President Clinton's Northwest Forest Plan--to protect the environment 
and to produce a sustainable level of timber harvest.
    Timber harvested from our reservation feeds local mills, which in 
turn creates jobs and supports local economies. Because of this, the 
tribes play an important role in the lives of tribal and community 
members. And while the Grand Ronde has reason to be proud of our timber 
harvest and the manner in which we extract timber resources, we are 
equally proud of the manner in which we protect and enhance our non-
timber assets.
    In just the last decade, the tribes have completed numerous stream 
enhancement projects--projects that have created high quality habitats 
and opened up over 20 miles of spawning and rearing reaches of 
reservation streams. In 1995, we began seeing Coho salmon returning to 
the reservation. Tribal forest stewardship has been so effective that 
we have entered into an MOU with the Forest Service and BLM to help 
manage 10,000 acres of their land to help find creative ways of 
carrying out the Northwest Forest Plan.
    The Grand Ronde has only been able to achieve this level of success 
because we have flexibility that the Forest Service and BLM do not. 
Like the proposal for the Coos Tribal Forest, the Grand Ronde Tribal 
Forest is managed under the National Indian Forest Resources Management 
Act, in cooperation with the Bureau of Indian Affairs [BIA]. Contrary 
to claims that the BIA commits ``egregious malfeasance'' in its timber 
management, the Grand Ronde has maintained a successful partnership 
with the BIA and I would discourage any categorical depictions of 
Indian forest management--especially in light of the previous hearing 
on IFMAT II.
    Fortunately, the Grand Ronde is not saddled with managing our 
forest under the Northwest Forest Plan, yet our forest is healthy, and 
provides a wide range of habitats. Because of all of the litigation 
associated with the Northwest Forest Plan, it has proven to be a dismal 
failure, and has had detrimental affects on the overall health of 
western forests--including the landscape level loss of spotted owl 
habitat to catastrophic wildfire. Consider too, that catastrophic fires 
also alarmingly degrade fisheries habitats. And while the lands at 
issue before you lie in the coast range where fire incidents are less 
frequent, we know that western forests do in fact bum, and that lack of 
sound management increases the likelihood that they will. Because of 
our successes in managing our forest lands, I posit that tribal forest 
management is more responsive to the needs of the land.
    Returning land to Indian tribes, whether small in acres or large, 
is truly a matter between the Federal Government and the tribes with 
which they are working--a government-to-government process. We are-all 
aware that there are concerns on, all sides whenever Federal lands are 
at issue, but this particular process must strive to steer clear of 
being driven by popularity.
    Opponents of the bill before the committee may assert that their 
claim to the lands supersedes the claim of Indian people, and this 
creates a dilemma for our elected leaders. Opponents may also present 
arguments against the transfer of lands to the tribes, and explain how 
devastating the transfer would be to the environment, particularly to 
the spotted owl and anadromous fish. But this claim ignores the success 
of the Grand Ronde that has faced the same management challenges? the 
same endangered species in the same geographic area. The Coos Forest 
Plan is based on restoring late successional habitat for the spotted 
owl, which is precisely what the environmental community has been 
advocating for the Siuslaw National Forest--yet many in their community 
still have strong objection to this legislation.
    So what, I ask, is truly at the heart of their opposition to tribal 
control of ancestral lands? Perhaps they simply do not want to see 
timber harvested for any reason, for any people. Perhaps they would be 
satisfied to see the Coos, Lower Umpqua, Siuslaw remain landless, and 
without an economy. At the end of the day, I suggest that at least a 
portion of their opposition lies in ``control.'' If they cannot control 
the decisions that tribes make, then they oppose the plan. And no 
doubt, they will present a number of arguments, but I submit that their 
arguments are speculative and emotional in nature, aimed at raising 
fears, not grounded in fact. The Coos, Lower Umpqua, Siuslaw Tribes are 
the only federally recognized tribe in Oregon that do not have any land 
to call their own. It would be just to return to them a portion of 
their ancestral lands, and equally just in allowing them to write their 
own plan--a plan that would balance the needs of the tribes with the 
protection and enhancement of tribal forest assets.
    Finally, if the restoration of reservation lands fails to happen, 
then what is the alternative for the Coos, Lower Umpqua, Siuslaw 
people? I implore you not to ignore their right to have lands restored 
to them. Should you support the bill before you, your decision will not 
be popular among those opposed to it. However, supporting it is the 
only right course of action, and time will prove, as it has with the 
Grand Ronde, that it was the best decision. The tribes' needs will be 
satisfied, and the environment will be made more resilient, healthy, 
and well functioning.
    My thanks to you again, for the privilege of speaking before you 
today.
                                 ______
                                 

 Prepared Statement of Jay Ward, Conservation Director, Oregon Natural 
                           Resources Council

    Oregon Natural Resources Council's 6,000 members are dedicated to 
preserving Oregon's wildlife, wildlands, and waters as an enduring 
legacy.
    With my presence here today, Oregon Natural Resources Council is 
also representing the Oregon Coalition for Public Lands, a multi-party 
citizens alliance that has come together to maintain public access and 
title to Federal lands including but not limited to Bureau of Land 
Management Lands, National Forest and National Park lands. The Oregon 
Coalition for Public Lands is also interested in developing alternative 
solutions to the numerous injustices suffered by the people of the 
Confederated Tribes of the Coos, Lower Umpqua, and Siuslaw.
    Mr. Chairman, members of the committee, esteemed members of the 
Grand Ronde, Coos, Lower Umpqua, and Siuslaw tribes. I wish to thank 
you for the opportunity to address you today on S. 868, the Coos, Lower 
Umpqua, and Siuslaw Restoration Amendments Act Of 2003. We are grateful 
for the opportunity to present our concerns with the bill and to answer 
any questions you may have.
    While my gratitude to you Mr. Chairman is genuine, I will admit to 
having ambiguous feelings about testifying in opposition to S. 868. As 
you yourself pointed out on the floor of the Senate last year, our 
Government's treatment of the people of the Confederated Tribes of the 
Coos, Lower Umpqua, and Siuslaw is nothing any of us should be proud 
of. There can be no argument that due to the short-sighted and 
sometimes racist attitudes of many of Oregon's early immigrants, the 
Coos, Lower Umpqua, and Siuslaw peoples were forced from their 
ancestral lands, confined in abysmal conditions and subjected to 
numerous wrongs in the ensuing 150 years. We agree with you Senator 
Smith that these wrongs are deserving of redress. However, we must 
disagree with the proposed solution and oppose S. 868.
    The forests of the Oregon Coast Range are largely under private 
industrial forest ownership. Because these private lands are so 
aggressively managed, the survival of several threatened and endangered 
species including coho salmon, spotted owls and marbled murrelets 
depends on strong conservation of the Siuslaw National Forest lands.
    The forests the Confederated Tribes seek to acquire constitute most 
of the Federal lands in the Coast Range between the Umpqua River and 
Siuslaw Rivers. This is some of the most productive forestland in the 
western United States and represents vital habitat for Pacific salmon, 
spotted owls, marbled murrelets, and hundreds of other species 
associated with mature and old-growth forests. Ten roadless areas 
suitable for wilderness designation are located within these public 
forests. Approximately 25,000 acres of old growth grace the landscape. 
Waterfalls abound. Pure water supports winter steelhead, chum, fall 
chinook, and coho here.
    As a National Forest, the Siuslaw is also recovering from over 50 
years of well-meaning but misguided forestry practices. Plagued by 
hundreds of miles of substandard roads, and thousands of acres of 
single-aged, single species tree plantations, the Siuslaw is in need of 
proven recovery methodologies. These could include road removal, stream 
restoration to benefit threatened and endangered salmon and steelhead, 
careful application of variable-density thinning in previously logged 
plantations to recreate multi-storied forests and careful management of 
invasive species to restore the biodiversity of a coastal temperate 
rainforest. Many of these activities are promised by the tribes, but 
unfortunately citizens' ability to influence these activities will be 
greatly diminished.
    Fortunately many of these actions are already taking place. Since 
the application of the landmark 1994 Northwest Forest Plan, the 
employees and partners of the Siuslaw National Forest have been working 
toward just that vision. Under the able leadership of Forest 
Supervisors Jim Furnish and Gloria Brown, the Siuslaw has become a 
national leader in meeting a multitude of management goals. In fact, 
last June, Chief Bosworth honored the Siuslaw National Forest with the 
``triple crown'' of forest management awards. These awards, the 
``Breaking Gridlock'', ``Natural Resource Stewardship'' and ``Rise to 
the Future'' awards highlight the excellent work that current staff are 
doing to recreate a healthier Siuslaw National Forest for the next 
millennia. In fact, ONRC staff has been working with Siuslaw National 
Forest personnel to plan and implement restorative projects. We've been 
able to establish and maintain this productive relationship because 
both we and the Forest Service know that crucial Federal environmental 
laws such as the National Forest Management Act and Federal Land Policy 
and Management Act are backstops to any deviation from the restorative 
vision currently being articulated by the Siuslaw National Forest 
personnel.
    America's Siuslaw National Forest belongs to all Americans. Whether 
by Native Americans, native-born Americans or naturalized citizens, 
these public lands are appreciated for their scenic beauty, 
recreational opportunities and their invaluable ecological role in 
conserving wildlife. Currently all Americans have the right to visit, 
traverse, hunt and fish in and enjoy their National Forests except 
under very specific circumstances related to fire, safety, or other 
life threatening conditions .
    Once lands pass out of the National Forest system, there will be no 
unalterable rights of access to these forests. A change in tribal 
leadership could suspend or abrogate access to particular forests and 
citizens would be compelled to enter into mediation and then may or may 
not have legal standing to challenge that suspension. Indeed, it is 
because of this potential loss of access and possible changes to 
existing game management policies that the Oregon Hunters Association 
joined the coalition.
    S. 868 would transfer huge acreage of the Siuslaw National Forest 
lands to the Confederated Tribes. Over 62,000 acres of timber, worth 
billions of dollars, would be transferred to and held in trust by the 
Bureau of Indian Affairs [BIA] for the use and benefit of approximately 
700 tribal members. The only previous transfer in Oregon's recent 
history was the transfer of 5,400 acres of Federal forests to the 695 
members of the Coquille Tribe in 1996. Should S. 868 become law, what 
will be the response of the Coquille, Cow Creek, and Siletz Tribes, who 
have considerably less acreage? It is our opinion that this transfer 
would open a Pandora's Box of claims and counter claims which this 
committee could take decades to settle. In fact, it is arguable that 
the Confederated Tribes of the Siletz, whose homelands stretched from 
Tillamook to Northern California have conflicting ancestral claims to 
these lands.
    Giving public lands to Native American Tribes is consistent with 
the wishes of some officials and industry groups to divest public 
resources and dismantle landmark environmental laws and policies. As 
citizen-owners of the National Forests, all Americans can now 
participate in the management of their forests, comment on National 
Forest operations and utilize all branches of government to ensure that 
the National Forests are managed in accordance with longstanding 
environmental safeguards. These rights would be undermined by this 
transfer of lands.
    While the Forest Service is an agency with an imperfect history, it 
is charged by Congress to manage public lands with conservation values 
as part of its mandate. The BIA has no such mandate. It is the 
responsibility of the Forest Service to ``sustain the health, 
diversity, and productivity of the Nation's forests and grasslands to 
meet the needs of present and future generations.'' Under the National 
Indian Forest Resources Management Act, is the responsibility of the 
BIA to ``develop forest land and lease assets on this land'' for the 
economic benefit of American Indians and Alaska Natives.
    Application of landmark environmental laws like the National Forest 
Management Act and Federal Land Policy and Management Act will be 
limited or lost if these public forests are no longer managed by the 
Forest Service and Bureau of Land Management on behalf of all 
Americans.
    Conservationists' recent experience with other tribal forest land 
acquisitions shows that the public can lose a lot in these transfers. 
For example, in 1997 Congress granted the 817 members of Oregon's 
Coquille Tribe the ``Coquille Forest''. It consisted of public land 
that had previously been managed by Coos-Bay BLM. The ``Coquille Forest 
Act'' (P.L. 104-208) established the ``Coquille Forest'' and provided 
that it would be managed under applicable State and Federal forestry 
and environmental protection laws, and subject to the Northwest Forest 
Plan. In November 1998, the Coquille Tribe released the Resource 
Management Plan (RMP) for the Coquille Forest.
    The Coquille Forest RMP states the forest will be harvested 
sustainably, and with sophisticated methodology and estimated a 
sustainable harvest would be 2 million board feet (mmbf) annually. But 
the first timber sale proposed in the Coquille Forest, called the Chu-
aw Clau-she Timber Sale proposed to award 16.6 mmbf over a 2-year 
period. While this timber sale was enjoined over its likely harm to 
threatened Coho salmon, the Coquille Tribe continued clearcutting old 
growth trees in violation of the Endangered Species Act and a standing 
court order. Only after the sale had been partially logged and the 
court issued a temporary restraining order did the BIA and the Coquille 
Tribes halt the illegal logging. As of last week, the Coquille Tribe 
has again submitted court documents to renew the logging in the Chu-aw 
Clau-she Timber Sale. (see attachment: Illegal logging in Coquille 
Tribal Forest)
    While the Coos, Lower Umpqua, and Siuslaw Tribes assert that they 
intend to maintain existing environmental laws and policies, at my last 
reading, legislative text does not appear to guarantee this assertion. 
Indeed, the timber industry and certain local leaders appear to support 
this proposal only because loopholes could remove land from management 
under the Northwest Forest Plan and facilitate the cutting of old 
growth trees, while prohibiting tribes from building their own mill or 
exporting logs.
    In S. 868, the tribes have not even established through legislative 
language that they would manage the forest in accordance with standards 
and guidelines of the Northwest Forest Plan. Given that these 
protections are being systematically removed by the administration and 
may not be in place at the time of transfer, it is likely that 
management practices will be controversial. Since the BIA holds these 
lands in trust for sovereign governments, citizen attempts to modify 
management decisions will be much more difficult than attempts to 
modify decisions about public lands. This is one reason that public 
lands should remain in public hands and should be managed under 
existing environmental laws.
    This legislation will undercut the 1994 Northwest Forest Plan 
[NWFP]. The Siuslaw National Forest is one of the National Forests 
covered by this plan. The NWFP is the Federal Government's attempt to 
provide a framework of sustainable forest management. Because of the 
clearcut state of surrounding private forests, most of the Siuslaw 
National Forest is sheltered in a system of Late Successional Reserves, 
Riparian Reserves and in Tier 1 Key Watersheds. Removal of these lands 
from the protections of the NWFP will jeopardize the reserve system as 
well as the viability of terrestrial and aquatic species.
    While much of this National Forest is currently managed to protect 
endangered species like Coho salmon, spotted owl, and marbled murrelet, 
adjacent State and private lands are granted exemptions from many 
constraints imposed by the NWFP. The transfer of over 62,000 acres to 
the Coos, Lower Umpqua, and Siuslaw Tribes and the removal of these 
lands from the NWFP framework will seriously undermine the NWFP and 
several related efforts, including Habitat Conservation Plans for the 
Elliot State Forest and Weyerhaeuser's Millicoma Tree Farm, the Oregon 
Plan for Salmon and Watersheds, and future recovery plans for listed 
species. Habitat Conservation Plans [HCP's] that currently provide 
certainty and accountability to state and private land managers may be 
thrown out and millions of dollars of taxpayers' moneys will have been 
wasted.
    The proposal would transfer Siuslaw National Forest lands from the 
Forest Service to the BIA. As I'm certain you are aware Senator Smith, 
the BIA is an agency currently embroiled in a massive mismanagement 
scandal resulting from its failure to track the royalty receipts for 
trustees. The agency's malfeasance is so egregious that the Department 
of the Interior websites are currently under court order and the 
Secretary of the Interior was declared in contempt of court for her 
agency's lack of fiscal responsibility. As the BIA has been such a poor 
steward of both native peoples' money and land, giving this agency 
responsibility for over 62,000 acres of National Forest land is an 
untenable gamble with precious resources.
    One of the first rules of business is to avoid investing in a 
declining market. While the Coos, Lower Umpqua, and Siuslaw people 
state an interest in managing the forest for ecological restoration, 
they also seek to become economically self-sufficient through these 
activities. It is unlikely that they can achieve both goals given 
current market conditions. Timber prices in the Northwest are at 
historical lows and competition from foreign suppliers is at an all 
time high.
    Through decades of overcutting, our forest ``accounts'' are already 
tragically overdrawn. We support economic self-sufficiency for native 
peoples but we strongly oppose using publicly owned forests as a blank 
check in an attempt to right past wrongs.
    In conclusion Senator Smith, the American people deserve an open, 
public discussion of alternate means to right these historical wrongs. 
Creating a tribal homeland for the 700 members of the Confederated 
Tribes may be a part of a just and equitable solution. We would suggest 
that Congress appoint a commission to determine the extent to which the 
Coos Lower Umpqua, and Siuslaw people have been wronged, quantify that 
harm and provide those funds to the tribes to purchase private forest 
lands, large tracts of which were also of their ancestral lands. (See 
attachment Siuslaw ownerships map)
    It may be that the land base needed to maintain cultural identity 
and the best economic future for the Confederated Tribes are separate 
issues. Indeed, the future prosperity of most Oregonians is based in a 
move away from extractive uses of our lands and toward technological 
creativity and service and recreational economies. Federal 
appropriations could support tribal investment in stable and profitable 
business enterprises.
    We support the efforts of the Confederated Tribes of the Coos, 
Lower Umpqua and Siuslaw to become economically self-sufficient. At the 
same time, we strongly oppose legislation which would turn over Siuslaw 
National Forest lands to the BIA and limit or remove landmark 
environmental laws that currently benefit all Americans. As citizens 
interested in the condition of public lands, we urge you to abandon 
this legislation and ask that you work to identify and fund good 
alternatives that maintain the national forest lands in public hands.
    Given the egregious treatment of the tribes by both Government and 
non-governmental bodies, we are eager to work together to arrive at an 
equitable solution.
    Thank you for the opportunity to present our views. I would be 
pleased to answer any questions you may have.
    Oregon Coalition for Public Lands Purpose Statement: The Oregon 
Coalition for Public Lands is a diverse group of conservation, 
recreational, and other organizations which are dedicated to the 
protection and preservation of Oregon's public forests, wilderness, 
refuges, parks, deserts, and grasslands, as well as the rights of all 
citizens to sustainably use and enjoy these lands and have a 
significant voice in their proper management.
    The Oregon Coalition for Public Lands will work to ensure that all 
the state's public lands shall be retained for responsible recreational 
uses such as hunting, hiking, fishing, birding, backpacking, boating, 
horseback-riding, sight-seeing, nature-appreciation, skiing, 
photography, and camping, and also for the long-term benefit and 
enjoyment of present and future generations.
    Oregon's public lands should be managed to maintain recreational 
resources, abundant fish and wildlife populations, functioning 
ecosystems, biological diversity, and watershed integrity.
    The Oregon Coalition of Public Lands will work with other 
institutions and individuals committed to promoting alternatives that 
will obviate any perceived need to forfeit, sell, or diminish Oregon's 
public lands legacy for any reason.
    Members of the Oregon Coalition of Public Lands:
  <bullet> Coast Range Association
  <bullet> Friends of the Columbia Gorge
  <bullet> Oregon Natural Resources Council
  <bullet> Oregon Hunters Association
  <bullet> Oregon State Public Interest Research Group
  <bullet> McKenzie Guardians
  <bullet> Salem Audubon Society
  <bullet> Siskiyou Regional Education Project
  <bullet> Soda Mountain Preservation Council
  <bullet> Umpqua Watersheds

[GRAPHIC] [TIFF OMITTED] T3040.001

[GRAPHIC] [TIFF OMITTED] T3040.002

[GRAPHIC] [TIFF OMITTED] T3040.003

[GRAPHIC] [TIFF OMITTED] T3040.004

[GRAPHIC] [TIFF OMITTED] T3040.005

[GRAPHIC] [TIFF OMITTED] T3040.006

[GRAPHIC] [TIFF OMITTED] T3040.007

[GRAPHIC] [TIFF OMITTED] T3040.008

[GRAPHIC] [TIFF OMITTED] T3040.009

[GRAPHIC] [TIFF OMITTED] T3040.010

[GRAPHIC] [TIFF OMITTED] T3040.011

[GRAPHIC] [TIFF OMITTED] T3040.012

[GRAPHIC] [TIFF OMITTED] T3040.013

[GRAPHIC] [TIFF OMITTED] T3040.014

[GRAPHIC] [TIFF OMITTED] T3040.015

[GRAPHIC] [TIFF OMITTED] T3040.016

[GRAPHIC] [TIFF OMITTED] T3040.017

[GRAPHIC] [TIFF OMITTED] T3040.018

[GRAPHIC] [TIFF OMITTED] T3040.019

[GRAPHIC] [TIFF OMITTED] T3040.020

[GRAPHIC] [TIFF OMITTED] T3040.021

[GRAPHIC] [TIFF OMITTED] T3040.022

[GRAPHIC] [TIFF OMITTED] T3040.023

[GRAPHIC] [TIFF OMITTED] T3040.024

[GRAPHIC] [TIFF OMITTED] T3040.025

[GRAPHIC] [TIFF OMITTED] T3040.026

[GRAPHIC] [TIFF OMITTED] T3040.027

[GRAPHIC] [TIFF OMITTED] T3040.028

[GRAPHIC] [TIFF OMITTED] T3040.029

[GRAPHIC] [TIFF OMITTED] T3040.030

[GRAPHIC] [TIFF OMITTED] T3040.031

[GRAPHIC] [TIFF OMITTED] T3040.032

[GRAPHIC] [TIFF OMITTED] T3040.033

[GRAPHIC] [TIFF OMITTED] T3040.034

[GRAPHIC] [TIFF OMITTED] T3040.035

[GRAPHIC] [TIFF OMITTED] T3040.036

[GRAPHIC] [TIFF OMITTED] T3040.037

[GRAPHIC] [TIFF OMITTED] T3040.038

[GRAPHIC] [TIFF OMITTED] T3040.039

[GRAPHIC] [TIFF OMITTED] T3040.040

[GRAPHIC] [TIFF OMITTED] T3040.041

[GRAPHIC] [TIFF OMITTED] T3040.042

[GRAPHIC] [TIFF OMITTED] T3040.043

[GRAPHIC] [TIFF OMITTED] T3040.044

[GRAPHIC] [TIFF OMITTED] T3040.045

[GRAPHIC] [TIFF OMITTED] T3040.046

[GRAPHIC] [TIFF OMITTED] T3040.047

[GRAPHIC] [TIFF OMITTED] T3040.048

[GRAPHIC] [TIFF OMITTED] T3040.049

[GRAPHIC] [TIFF OMITTED] T3040.050

[GRAPHIC] [TIFF OMITTED] T3040.051

[GRAPHIC] [TIFF OMITTED] T3040.052

[GRAPHIC] [TIFF OMITTED] T3040.053

[GRAPHIC] [TIFF OMITTED] T3040.054

[GRAPHIC] [TIFF OMITTED] T3040.055

[GRAPHIC] [TIFF OMITTED] T3040.056

[GRAPHIC] [TIFF OMITTED] T3040.057

[GRAPHIC] [TIFF OMITTED] T3040.058

[GRAPHIC] [TIFF OMITTED] T3040.059

[GRAPHIC] [TIFF OMITTED] T3040.060

[GRAPHIC] [TIFF OMITTED] T3040.061

[GRAPHIC] [TIFF OMITTED] T3040.062

[GRAPHIC] [TIFF OMITTED] T3040.063

[GRAPHIC] [TIFF OMITTED] T3040.064

[GRAPHIC] [TIFF OMITTED] T3040.065

[GRAPHIC] [TIFF OMITTED] T3040.066

[GRAPHIC] [TIFF OMITTED] T3040.067

[GRAPHIC] [TIFF OMITTED] T3040.068

[GRAPHIC] [TIFF OMITTED] T3040.069

[GRAPHIC] [TIFF OMITTED] T3040.070

[GRAPHIC] [TIFF OMITTED] T3040.071

[GRAPHIC] [TIFF OMITTED] T3040.072

[GRAPHIC] [TIFF OMITTED] T3040.073

[GRAPHIC] [TIFF OMITTED] T3040.074

[GRAPHIC] [TIFF OMITTED] T3040.075

[GRAPHIC] [TIFF OMITTED] T3040.076

[GRAPHIC] [TIFF OMITTED] T3040.077

[GRAPHIC] [TIFF OMITTED] T3040.078

[GRAPHIC] [TIFF OMITTED] T3040.079

[GRAPHIC] [TIFF OMITTED] T3040.080

[GRAPHIC] [TIFF OMITTED] T3040.081

[GRAPHIC] [TIFF OMITTED] T3040.082

[GRAPHIC] [TIFF OMITTED] T3040.083

[GRAPHIC] [TIFF OMITTED] T3040.084

[GRAPHIC] [TIFF OMITTED] T3040.085

[GRAPHIC] [TIFF OMITTED] T3040.086

[GRAPHIC] [TIFF OMITTED] T3040.087

[GRAPHIC] [TIFF OMITTED] T3040.088

[GRAPHIC] [TIFF OMITTED] T3040.089

[GRAPHIC] [TIFF OMITTED] T3040.090

[GRAPHIC] [TIFF OMITTED] T3040.091

[GRAPHIC] [TIFF OMITTED] T3040.092

[GRAPHIC] [TIFF OMITTED] T3040.093

[GRAPHIC] [TIFF OMITTED] T3040.094

[GRAPHIC] [TIFF OMITTED] T3040.095

[GRAPHIC] [TIFF OMITTED] T3040.096

[GRAPHIC] [TIFF OMITTED] T3040.097

[GRAPHIC] [TIFF OMITTED] T3040.098

[GRAPHIC] [TIFF OMITTED] T3040.099

[GRAPHIC] [TIFF OMITTED] T3040.100

[GRAPHIC] [TIFF OMITTED] T3040.101

[GRAPHIC] [TIFF OMITTED] T3040.102

[GRAPHIC] [TIFF OMITTED] T3040.103

[GRAPHIC] [TIFF OMITTED] T3040.104

[GRAPHIC] [TIFF OMITTED] T3040.105

[GRAPHIC] [TIFF OMITTED] T3040.106

[GRAPHIC] [TIFF OMITTED] T3040.107

[GRAPHIC] [TIFF OMITTED] T3040.108

[GRAPHIC] [TIFF OMITTED] T3040.109

[GRAPHIC] [TIFF OMITTED] T3040.110

[GRAPHIC] [TIFF OMITTED] T3040.111

[GRAPHIC] [TIFF OMITTED] T3040.112

[GRAPHIC] [TIFF OMITTED] T3040.113

[GRAPHIC] [TIFF OMITTED] T3040.114

[GRAPHIC] [TIFF OMITTED] T3040.115

[GRAPHIC] [TIFF OMITTED] T3040.116

[GRAPHIC] [TIFF OMITTED] T3040.117

[GRAPHIC] [TIFF OMITTED] T3040.118

[GRAPHIC] [TIFF OMITTED] T3040.119

[GRAPHIC] [TIFF OMITTED] T3040.120

[GRAPHIC] [TIFF OMITTED] T3040.121

[GRAPHIC] [TIFF OMITTED] T3040.122

[GRAPHIC] [TIFF OMITTED] T3040.123

[GRAPHIC] [TIFF OMITTED] T3040.124

[GRAPHIC] [TIFF OMITTED] T3040.125

[GRAPHIC] [TIFF OMITTED] T3040.126

[GRAPHIC] [TIFF OMITTED] T3040.127

[GRAPHIC] [TIFF OMITTED] T3040.128

[GRAPHIC] [TIFF OMITTED] T3040.129

[GRAPHIC] [TIFF OMITTED] T3040.130

[GRAPHIC] [TIFF OMITTED] T3040.131

[GRAPHIC] [TIFF OMITTED] T3040.132

[GRAPHIC] [TIFF OMITTED] T3040.133

[GRAPHIC] [TIFF OMITTED] T3040.134

[GRAPHIC] [TIFF OMITTED] T3040.135

[GRAPHIC] [TIFF OMITTED] T3040.136

[GRAPHIC] [TIFF OMITTED] T3040.137

[GRAPHIC] [TIFF OMITTED] T3040.138

[GRAPHIC] [TIFF OMITTED] T3040.139

[GRAPHIC] [TIFF OMITTED] T3040.140

[GRAPHIC] [TIFF OMITTED] T3040.141

[GRAPHIC] [TIFF OMITTED] T3040.142

[GRAPHIC] [TIFF OMITTED] T3040.143

[GRAPHIC] [TIFF OMITTED] T3040.144

[GRAPHIC] [TIFF OMITTED] T3040.145

[GRAPHIC] [TIFF OMITTED] T3040.146

[GRAPHIC] [TIFF OMITTED] T3040.147

[GRAPHIC] [TIFF OMITTED] T3040.148

[GRAPHIC] [TIFF OMITTED] T3040.149

[GRAPHIC] [TIFF OMITTED] T3040.150

[GRAPHIC] [TIFF OMITTED] T3040.151

[GRAPHIC] [TIFF OMITTED] T3040.152

[GRAPHIC] [TIFF OMITTED] T3040.153

[GRAPHIC] [TIFF OMITTED] T3040.154

[GRAPHIC] [TIFF OMITTED] T3040.155

[GRAPHIC] [TIFF OMITTED] T3040.156

[GRAPHIC] [TIFF OMITTED] T3040.157

[GRAPHIC] [TIFF OMITTED] T3040.158

[GRAPHIC] [TIFF OMITTED] T3040.159

[GRAPHIC] [TIFF OMITTED] T3040.160

[GRAPHIC] [TIFF OMITTED] T3040.161

[GRAPHIC] [TIFF OMITTED] T3040.162

[GRAPHIC] [TIFF OMITTED] T3040.163

[GRAPHIC] [TIFF OMITTED] T3040.164

[GRAPHIC] [TIFF OMITTED] T3040.165

[GRAPHIC] [TIFF OMITTED] T3040.166

[GRAPHIC] [TIFF OMITTED] T3040.167

[GRAPHIC] [TIFF OMITTED] T3040.168

[GRAPHIC] [TIFF OMITTED] T3040.169

[GRAPHIC] [TIFF OMITTED] T3040.170

[GRAPHIC] [TIFF OMITTED] T3040.171

[GRAPHIC] [TIFF OMITTED] T3040.172

[GRAPHIC] [TIFF OMITTED] T3040.173

[GRAPHIC] [TIFF OMITTED] T3040.174

[GRAPHIC] [TIFF OMITTED] T3040.175

[GRAPHIC] [TIFF OMITTED] T3040.176

[GRAPHIC] [TIFF OMITTED] T3040.177

[GRAPHIC] [TIFF OMITTED] T3040.178

[GRAPHIC] [TIFF OMITTED] T3040.179

[GRAPHIC] [TIFF OMITTED] T3040.180

[GRAPHIC] [TIFF OMITTED] T3040.181

[GRAPHIC] [TIFF OMITTED] T3040.182

[GRAPHIC] [TIFF OMITTED] T3040.183

[GRAPHIC] [TIFF OMITTED] T3040.184

[GRAPHIC] [TIFF OMITTED] T3040.185

[GRAPHIC] [TIFF OMITTED] T3040.186

[GRAPHIC] [TIFF OMITTED] T3040.187

[GRAPHIC] [TIFF OMITTED] T3040.188

[GRAPHIC] [TIFF OMITTED] T3040.189

[GRAPHIC] [TIFF OMITTED] T3040.190

[GRAPHIC] [TIFF OMITTED] T3040.191

[GRAPHIC] [TIFF OMITTED] T3040.192

[GRAPHIC] [TIFF OMITTED] T3040.193

[GRAPHIC] [TIFF OMITTED] T3040.194

[GRAPHIC] [TIFF OMITTED] T3040.195

[GRAPHIC] [TIFF OMITTED] T3040.196

[GRAPHIC] [TIFF OMITTED] T3040.197

[GRAPHIC] [TIFF OMITTED] T3040.198

[GRAPHIC] [TIFF OMITTED] T3040.199

[GRAPHIC] [TIFF OMITTED] T3040.200

[GRAPHIC] [TIFF OMITTED] T3040.201

[GRAPHIC] [TIFF OMITTED] T3040.202

[GRAPHIC] [TIFF OMITTED] T3040.203

[GRAPHIC] [TIFF OMITTED] T3040.204

[GRAPHIC] [TIFF OMITTED] T3040.205

[GRAPHIC] [TIFF OMITTED] T3040.206

[GRAPHIC] [TIFF OMITTED] T3040.207

[GRAPHIC] [TIFF OMITTED] T3040.208

[GRAPHIC] [TIFF OMITTED] T3040.209

[GRAPHIC] [TIFF OMITTED] T3040.210

[GRAPHIC] [TIFF OMITTED] T3040.211

[GRAPHIC] [TIFF OMITTED] T3040.212

[GRAPHIC] [TIFF OMITTED] T3040.213

[GRAPHIC] [TIFF OMITTED] T3040.214

[GRAPHIC] [TIFF OMITTED] T3040.215

[GRAPHIC] [TIFF OMITTED] T3040.216

[GRAPHIC] [TIFF OMITTED] T3040.217

[GRAPHIC] [TIFF OMITTED] T3040.218

[GRAPHIC] [TIFF OMITTED] T3040.219

[GRAPHIC] [TIFF OMITTED] T3040.220

[GRAPHIC] [TIFF OMITTED] T3040.221

[GRAPHIC] [TIFF OMITTED] T3040.222

[GRAPHIC] [TIFF OMITTED] T3040.223

[GRAPHIC] [TIFF OMITTED] T3040.224

[GRAPHIC] [TIFF OMITTED] T3040.225

[GRAPHIC] [TIFF OMITTED] T3040.226

[GRAPHIC] [TIFF OMITTED] T3040.227

[GRAPHIC] [TIFF OMITTED] T3040.228

[GRAPHIC] [TIFF OMITTED] T3040.229

[GRAPHIC] [TIFF OMITTED] T3040.230

[GRAPHIC] [TIFF OMITTED] T3040.231

[GRAPHIC] [TIFF OMITTED] T3040.232

[GRAPHIC] [TIFF OMITTED] T3040.233

[GRAPHIC] [TIFF OMITTED] T3040.234

[GRAPHIC] [TIFF OMITTED] T3040.235

[GRAPHIC] [TIFF OMITTED] T3040.236

[GRAPHIC] [TIFF OMITTED] T3040.237

[GRAPHIC] [TIFF OMITTED] T3040.238

[GRAPHIC] [TIFF OMITTED] T3040.239

[GRAPHIC] [TIFF OMITTED] T3040.240

[GRAPHIC] [TIFF OMITTED] T3040.241

[GRAPHIC] [TIFF OMITTED] T3040.242

[GRAPHIC] [TIFF OMITTED] T3040.243

[GRAPHIC] [TIFF OMITTED] T3040.244

[GRAPHIC] [TIFF OMITTED] T3040.245

[GRAPHIC] [TIFF OMITTED] T3040.246

[GRAPHIC] [TIFF OMITTED] T3040.247

[GRAPHIC] [TIFF OMITTED] T3040.248

[GRAPHIC] [TIFF OMITTED] T3040.249

[GRAPHIC] [TIFF OMITTED] T3040.250

[GRAPHIC] [TIFF OMITTED] T3040.251

[GRAPHIC] [TIFF OMITTED] T3040.252

[GRAPHIC] [TIFF OMITTED] T3040.253

[GRAPHIC] [TIFF OMITTED] T3040.254

[GRAPHIC] [TIFF OMITTED] T3040.255

[GRAPHIC] [TIFF OMITTED] T3040.256

[GRAPHIC] [TIFF OMITTED] T3040.257

[GRAPHIC] [TIFF OMITTED] T3040.258

[GRAPHIC] [TIFF OMITTED] T3040.259

[GRAPHIC] [TIFF OMITTED] T3040.260

[GRAPHIC] [TIFF OMITTED] T3040.261

[GRAPHIC] [TIFF OMITTED] T3040.262

[GRAPHIC] [TIFF OMITTED] T3040.263

[GRAPHIC] [TIFF OMITTED] T3040.264

[GRAPHIC] [TIFF OMITTED] T3040.265

[GRAPHIC] [TIFF OMITTED] T3040.266

[GRAPHIC] [TIFF OMITTED] T3040.267

[GRAPHIC] [TIFF OMITTED] T3040.268

[GRAPHIC] [TIFF OMITTED] T3040.269

[GRAPHIC] [TIFF OMITTED] T3040.270

[GRAPHIC] [TIFF OMITTED] T3040.271

[GRAPHIC] [TIFF OMITTED] T3040.272

[GRAPHIC] [TIFF OMITTED] T3040.273

[GRAPHIC] [TIFF OMITTED] T3040.274

[GRAPHIC] [TIFF OMITTED] T3040.275

[GRAPHIC] [TIFF OMITTED] T3040.276

[GRAPHIC] [TIFF OMITTED] T3040.277

[GRAPHIC] [TIFF OMITTED] T3040.278

[GRAPHIC] [TIFF OMITTED] T3040.279

[GRAPHIC] [TIFF OMITTED] T3040.280

[GRAPHIC] [TIFF OMITTED] T3040.281

[GRAPHIC] [TIFF OMITTED] T3040.282

[GRAPHIC] [TIFF OMITTED] T3040.283

[GRAPHIC] [TIFF OMITTED] T3040.284

[GRAPHIC] [TIFF OMITTED] T3040.285

[GRAPHIC] [TIFF OMITTED] T3040.286

[GRAPHIC] [TIFF OMITTED] T3040.287

[GRAPHIC] [TIFF OMITTED] T3040.288

[GRAPHIC] [TIFF OMITTED] T3040.289

[GRAPHIC] [TIFF OMITTED] T3040.290

[GRAPHIC] [TIFF OMITTED] T3040.291

[GRAPHIC] [TIFF OMITTED] T3040.292

[GRAPHIC] [TIFF OMITTED] T3040.293

[GRAPHIC] [TIFF OMITTED] T3040.294

[GRAPHIC] [TIFF OMITTED] T3040.295

[GRAPHIC] [TIFF OMITTED] T3040.296

[GRAPHIC] [TIFF OMITTED] T3040.297

[GRAPHIC] [TIFF OMITTED] T3040.298

[GRAPHIC] [TIFF OMITTED] T3040.299

[GRAPHIC] [TIFF OMITTED] T3040.300

[GRAPHIC] [TIFF OMITTED] T3040.301

[GRAPHIC] [TIFF OMITTED] T3040.302

[GRAPHIC] [TIFF OMITTED] T3040.303

[GRAPHIC] [TIFF OMITTED] T3040.304

[GRAPHIC] [TIFF OMITTED] T3040.305

[GRAPHIC] [TIFF OMITTED] T3040.306

[GRAPHIC] [TIFF OMITTED] T3040.307

[GRAPHIC] [TIFF OMITTED] T3040.308

[GRAPHIC] [TIFF OMITTED] T3040.309

[GRAPHIC] [TIFF OMITTED] T3040.310

[GRAPHIC] [TIFF OMITTED] T3040.311

[GRAPHIC] [TIFF OMITTED] T3040.312

[GRAPHIC] [TIFF OMITTED] T3040.313

[GRAPHIC] [TIFF OMITTED] T3040.314

[GRAPHIC] [TIFF OMITTED] T3040.315

[GRAPHIC] [TIFF OMITTED] T3040.316

[GRAPHIC] [TIFF OMITTED] T3040.317

[GRAPHIC] [TIFF OMITTED] T3040.318

[GRAPHIC] [TIFF OMITTED] T3040.319

[GRAPHIC] [TIFF OMITTED] T3040.320

[GRAPHIC] [TIFF OMITTED] T3040.321

[GRAPHIC] [TIFF OMITTED] T3040.322

[GRAPHIC] [TIFF OMITTED] T3040.323

[GRAPHIC] [TIFF OMITTED] T3040.324

[GRAPHIC] [TIFF OMITTED] T3040.325

[GRAPHIC] [TIFF OMITTED] T3040.326

[GRAPHIC] [TIFF OMITTED] T3040.327

[GRAPHIC] [TIFF OMITTED] T3040.328

[GRAPHIC] [TIFF OMITTED] T3040.329

[GRAPHIC] [TIFF OMITTED] T3040.330

[GRAPHIC] [TIFF OMITTED] T3040.331

[GRAPHIC] [TIFF OMITTED] T3040.332

[GRAPHIC] [TIFF OMITTED] T3040.333

[GRAPHIC] [TIFF OMITTED] T3040.334

[GRAPHIC] [TIFF OMITTED] T3040.335

[GRAPHIC] [TIFF OMITTED] T3040.336

[GRAPHIC] [TIFF OMITTED] T3040.337

[GRAPHIC] [TIFF OMITTED] T3040.338

[GRAPHIC] [TIFF OMITTED] T3040.339

[GRAPHIC] [TIFF OMITTED] T3040.340

[GRAPHIC] [TIFF OMITTED] T3040.341

[GRAPHIC] [TIFF OMITTED] T3040.342

[GRAPHIC] [TIFF OMITTED] T3040.343

[GRAPHIC] [TIFF OMITTED] T3040.344

[GRAPHIC] [TIFF OMITTED] T3040.345

[GRAPHIC] [TIFF OMITTED] T3040.346

[GRAPHIC] [TIFF OMITTED] T3040.347

[GRAPHIC] [TIFF OMITTED] T3040.348

[GRAPHIC] [TIFF OMITTED] T3040.349

[GRAPHIC] [TIFF OMITTED] T3040.350

[GRAPHIC] [TIFF OMITTED] T3040.351

[GRAPHIC] [TIFF OMITTED] T3040.352

[GRAPHIC] [TIFF OMITTED] T3040.353

[GRAPHIC] [TIFF OMITTED] T3040.354

[GRAPHIC] [TIFF OMITTED] T3040.355

[GRAPHIC] [TIFF OMITTED] T3040.356

[GRAPHIC] [TIFF OMITTED] T3040.357

[GRAPHIC] [TIFF OMITTED] T3040.358

[GRAPHIC] [TIFF OMITTED] T3040.359

[GRAPHIC] [TIFF OMITTED] T3040.360

[GRAPHIC] [TIFF OMITTED] T3040.361

[GRAPHIC] [TIFF OMITTED] T3040.362

[GRAPHIC] [TIFF OMITTED] T3040.363

[GRAPHIC] [TIFF OMITTED] T3040.364

[GRAPHIC] [TIFF OMITTED] T3040.365

[GRAPHIC] [TIFF OMITTED] T3040.366

[GRAPHIC] [TIFF OMITTED] T3040.367

[GRAPHIC] [TIFF OMITTED] T3040.368

[GRAPHIC] [TIFF OMITTED] T3040.369

[GRAPHIC] [TIFF OMITTED] T3040.370

[GRAPHIC] [TIFF OMITTED] T3040.371

[GRAPHIC] [TIFF OMITTED] T3040.372

[GRAPHIC] [TIFF OMITTED] T3040.373

[GRAPHIC] [TIFF OMITTED] T3040.374

[GRAPHIC] [TIFF OMITTED] T3040.375

[GRAPHIC] [TIFF OMITTED] T3040.376

[GRAPHIC] [TIFF OMITTED] T3040.377

[GRAPHIC] [TIFF OMITTED] T3040.378

[GRAPHIC] [TIFF OMITTED] T3040.379

[GRAPHIC] [TIFF OMITTED] T3040.380

[GRAPHIC] [TIFF OMITTED] T3040.381

[GRAPHIC] [TIFF OMITTED] T3040.382

[GRAPHIC] [TIFF OMITTED] T3040.383

[GRAPHIC] [TIFF OMITTED] T3040.384

[GRAPHIC] [TIFF OMITTED] T3040.385

[GRAPHIC] [TIFF OMITTED] T3040.386

[GRAPHIC] [TIFF OMITTED] T3040.387

[GRAPHIC] [TIFF OMITTED] T3040.388

[GRAPHIC] [TIFF OMITTED] T3040.389

[GRAPHIC] [TIFF OMITTED] T3040.390

[GRAPHIC] [TIFF OMITTED] T3040.391

[GRAPHIC] [TIFF OMITTED] T3040.392

[GRAPHIC] [TIFF OMITTED] T3040.393

[GRAPHIC] [TIFF OMITTED] T3040.394

[GRAPHIC] [TIFF OMITTED] T3040.395

[GRAPHIC] [TIFF OMITTED] T3040.396

[GRAPHIC] [TIFF OMITTED] T3040.397

[GRAPHIC] [TIFF OMITTED] T3040.398

[GRAPHIC] [TIFF OMITTED] T3040.399

[GRAPHIC] [TIFF OMITTED] T3040.400

[GRAPHIC] [TIFF OMITTED] T3040.401

[GRAPHIC] [TIFF OMITTED] T3040.402

[GRAPHIC] [TIFF OMITTED] T3040.403

[GRAPHIC] [TIFF OMITTED] T3040.404

[GRAPHIC] [TIFF OMITTED] T3040.405

[GRAPHIC] [TIFF OMITTED] T3040.406

[GRAPHIC] [TIFF OMITTED] T3040.407

[GRAPHIC] [TIFF OMITTED] T3040.408

[GRAPHIC] [TIFF OMITTED] T3040.409

[GRAPHIC] [TIFF OMITTED] T3040.410

[GRAPHIC] [TIFF OMITTED] T3040.411

[GRAPHIC] [TIFF OMITTED] T3040.412

[GRAPHIC] [TIFF OMITTED] T3040.413

[GRAPHIC] [TIFF OMITTED] T3040.414

[GRAPHIC] [TIFF OMITTED] T3040.415

[GRAPHIC] [TIFF OMITTED] T3040.416

[GRAPHIC] [TIFF OMITTED] T3040.417

[GRAPHIC] [TIFF OMITTED] T3040.418

[GRAPHIC] [TIFF OMITTED] T3040.419

[GRAPHIC] [TIFF OMITTED] T3040.420

[GRAPHIC] [TIFF OMITTED] T3040.421

[GRAPHIC] [TIFF OMITTED] T3040.422

[GRAPHIC] [TIFF OMITTED] T3040.423

[GRAPHIC] [TIFF OMITTED] T3040.424

[GRAPHIC] [TIFF OMITTED] T3040.425

[GRAPHIC] [TIFF OMITTED] T3040.426

[GRAPHIC] [TIFF OMITTED] T3040.427

[GRAPHIC] [TIFF OMITTED] T3040.428

[GRAPHIC] [TIFF OMITTED] T3040.429

[GRAPHIC] [TIFF OMITTED] T3040.430

[GRAPHIC] [TIFF OMITTED] T3040.431

[GRAPHIC] [TIFF OMITTED] T3040.432

[GRAPHIC] [TIFF OMITTED] T3040.433

[GRAPHIC] [TIFF OMITTED] T3040.434

[GRAPHIC] [TIFF OMITTED] T3040.435

[GRAPHIC] [TIFF OMITTED] T3040.436

[GRAPHIC] [TIFF OMITTED] T3040.437

[GRAPHIC] [TIFF OMITTED] T3040.438

[GRAPHIC] [TIFF OMITTED] T3040.439

[GRAPHIC] [TIFF OMITTED] T3040.440

[GRAPHIC] [TIFF OMITTED] T3040.441

[GRAPHIC] [TIFF OMITTED] T3040.442

[GRAPHIC] [TIFF OMITTED] T3040.443

[GRAPHIC] [TIFF OMITTED] T3040.444

[GRAPHIC] [TIFF OMITTED] T3040.445

[GRAPHIC] [TIFF OMITTED] T3040.446

[GRAPHIC] [TIFF OMITTED] T3040.447

[GRAPHIC] [TIFF OMITTED] T3040.448

[GRAPHIC] [TIFF OMITTED] T3040.449

[GRAPHIC] [TIFF OMITTED] T3040.450

[GRAPHIC] [TIFF OMITTED] T3040.451

[GRAPHIC] [TIFF OMITTED] T3040.452

[GRAPHIC] [TIFF OMITTED] T3040.453

[GRAPHIC] [TIFF OMITTED] T3040.454

[GRAPHIC] [TIFF OMITTED] T3040.455

[GRAPHIC] [TIFF OMITTED] T3040.456

[GRAPHIC] [TIFF OMITTED] T3040.457

[GRAPHIC] [TIFF OMITTED] T3040.458

[GRAPHIC] [TIFF OMITTED] T3040.459

[GRAPHIC] [TIFF OMITTED] T3040.460

[GRAPHIC] [TIFF OMITTED] T3040.461

[GRAPHIC] [TIFF OMITTED] T3040.462

[GRAPHIC] [TIFF OMITTED] T3040.463

[GRAPHIC] [TIFF OMITTED] T3040.464

[GRAPHIC] [TIFF OMITTED] T3040.465

[GRAPHIC] [TIFF OMITTED] T3040.466

[GRAPHIC] [TIFF OMITTED] T3040.467

[GRAPHIC] [TIFF OMITTED] T3040.468

[GRAPHIC] [TIFF OMITTED] T3040.469

[GRAPHIC] [TIFF OMITTED] T3040.470

[GRAPHIC] [TIFF OMITTED] T3040.471

[GRAPHIC] [TIFF OMITTED] T3040.472

[GRAPHIC] [TIFF OMITTED] T3040.473

[GRAPHIC] [TIFF OMITTED] T3040.474

[GRAPHIC] [TIFF OMITTED] T3040.475

[GRAPHIC] [TIFF OMITTED] T3040.476

[GRAPHIC] [TIFF OMITTED] T3040.477

[GRAPHIC] [TIFF OMITTED] T3040.478

[GRAPHIC] [TIFF OMITTED] T3040.479

[GRAPHIC] [TIFF OMITTED] T3040.480

[GRAPHIC] [TIFF OMITTED] T3040.481

[GRAPHIC] [TIFF OMITTED] T3040.482

[GRAPHIC] [TIFF OMITTED] T3040.483

[GRAPHIC] [TIFF OMITTED] T3040.484

[GRAPHIC] [TIFF OMITTED] T3040.485

[GRAPHIC] [TIFF OMITTED] T3040.486

[GRAPHIC] [TIFF OMITTED] T3040.487

[GRAPHIC] [TIFF OMITTED] T3040.488

[GRAPHIC] [TIFF OMITTED] T3040.489

[GRAPHIC] [TIFF OMITTED] T3040.490

[GRAPHIC] [TIFF OMITTED] T3040.491

[GRAPHIC] [TIFF OMITTED] T3040.492

[GRAPHIC] [TIFF OMITTED] T3040.493

[GRAPHIC] [TIFF OMITTED] T3040.494

[GRAPHIC] [TIFF OMITTED] T3040.495

[GRAPHIC] [TIFF OMITTED] T3040.496

[GRAPHIC] [TIFF OMITTED] T3040.497

[GRAPHIC] [TIFF OMITTED] T3040.498

[GRAPHIC] [TIFF OMITTED] T3040.499

[GRAPHIC] [TIFF OMITTED] T3040.500

[GRAPHIC] [TIFF OMITTED] T3040.501

[GRAPHIC] [TIFF OMITTED] T3040.502

[GRAPHIC] [TIFF OMITTED] T3040.503

[GRAPHIC] [TIFF OMITTED] T3040.504

[GRAPHIC] [TIFF OMITTED] T3040.505

[GRAPHIC] [TIFF OMITTED] T3040.506

[GRAPHIC] [TIFF OMITTED] T3040.507

[GRAPHIC] [TIFF OMITTED] T3040.508

[GRAPHIC] [TIFF OMITTED] T3040.509

[GRAPHIC] [TIFF OMITTED] T3040.510

[GRAPHIC] [TIFF OMITTED] T3040.511

[GRAPHIC] [TIFF OMITTED] T3040.512

[GRAPHIC] [TIFF OMITTED] T3040.513

[GRAPHIC] [TIFF OMITTED] T3040.514

[GRAPHIC] [TIFF OMITTED] T3040.515

[GRAPHIC] [TIFF OMITTED] T3040.516

[GRAPHIC] [TIFF OMITTED] T3040.517

[GRAPHIC] [TIFF OMITTED] T3040.518

[GRAPHIC] [TIFF OMITTED] T3040.519

[GRAPHIC] [TIFF OMITTED] T3040.520

[GRAPHIC] [TIFF OMITTED] T3040.521

[GRAPHIC] [TIFF OMITTED] T3040.522

[GRAPHIC] [TIFF OMITTED] T3040.523

[GRAPHIC] [TIFF OMITTED] T3040.524

[GRAPHIC] [TIFF OMITTED] T3040.525

[GRAPHIC] [TIFF OMITTED] T3040.526

[GRAPHIC] [TIFF OMITTED] T3040.527

[GRAPHIC] [TIFF OMITTED] T3040.528

[GRAPHIC] [TIFF OMITTED] T3040.529

[GRAPHIC] [TIFF OMITTED] T3040.530

[GRAPHIC] [TIFF OMITTED] T3040.531

[GRAPHIC] [TIFF OMITTED] T3040.532

[GRAPHIC] [TIFF OMITTED] T3040.533

[GRAPHIC] [TIFF OMITTED] T3040.534

[GRAPHIC] [TIFF OMITTED] T3040.535

[GRAPHIC] [TIFF OMITTED] T3040.536

[GRAPHIC] [TIFF OMITTED] T3040.537

[GRAPHIC] [TIFF OMITTED] T3040.538

[GRAPHIC] [TIFF OMITTED] T3040.539

[GRAPHIC] [TIFF OMITTED] T3040.540

[GRAPHIC] [TIFF OMITTED] T3040.541

[GRAPHIC] [TIFF OMITTED] T3040.542

[GRAPHIC] [TIFF OMITTED] T3040.543

[GRAPHIC] [TIFF OMITTED] T3040.544

[GRAPHIC] [TIFF OMITTED] T3040.545

[GRAPHIC] [TIFF OMITTED] T3040.546

[GRAPHIC] [TIFF OMITTED] T3040.547

[GRAPHIC] [TIFF OMITTED] T3040.548

[GRAPHIC] [TIFF OMITTED] T3040.549

[GRAPHIC] [TIFF OMITTED] T3040.550

[GRAPHIC] [TIFF OMITTED] T3040.551

[GRAPHIC] [TIFF OMITTED] T3040.552

[GRAPHIC] [TIFF OMITTED] T3040.553

[GRAPHIC] [TIFF OMITTED] T3040.554

[GRAPHIC] [TIFF OMITTED] T3040.555

[GRAPHIC] [TIFF OMITTED] T3040.556

[GRAPHIC] [TIFF OMITTED] T3040.557

[GRAPHIC] [TIFF OMITTED] T3040.558

[GRAPHIC] [TIFF OMITTED] T3040.559

[GRAPHIC] [TIFF OMITTED] T3040.560

[GRAPHIC] [TIFF OMITTED] T3040.561

[GRAPHIC] [TIFF OMITTED] T3040.562

[GRAPHIC] [TIFF OMITTED] T3040.563

[GRAPHIC] [TIFF OMITTED] T3040.564

[GRAPHIC] [TIFF OMITTED] T3040.565

[GRAPHIC] [TIFF OMITTED] T3040.566

[GRAPHIC] [TIFF OMITTED] T3040.567

[GRAPHIC] [TIFF OMITTED] T3040.568

[GRAPHIC] [TIFF OMITTED] T3040.569

[GRAPHIC] [TIFF OMITTED] T3040.570

[GRAPHIC] [TIFF OMITTED] T3040.571

[GRAPHIC] [TIFF OMITTED] T3040.572

[GRAPHIC] [TIFF OMITTED] T3040.573

[GRAPHIC] [TIFF OMITTED] T3040.574

[GRAPHIC] [TIFF OMITTED] T3040.575

[GRAPHIC] [TIFF OMITTED] T3040.576

[GRAPHIC] [TIFF OMITTED] T3040.577

[GRAPHIC] [TIFF OMITTED] T3040.578

[GRAPHIC] [TIFF OMITTED] T3040.579

[GRAPHIC] [TIFF OMITTED] T3040.580

[GRAPHIC] [TIFF OMITTED] T3040.581

[GRAPHIC] [TIFF OMITTED] T3040.582

[GRAPHIC] [TIFF OMITTED] T3040.583

[GRAPHIC] [TIFF OMITTED] T3040.584

[GRAPHIC] [TIFF OMITTED] T3040.585

[GRAPHIC] [TIFF OMITTED] T3040.586

[GRAPHIC] [TIFF OMITTED] T3040.587

[GRAPHIC] [TIFF OMITTED] T3040.588

[GRAPHIC] [TIFF OMITTED] T3040.589

[GRAPHIC] [TIFF OMITTED] T3040.590

[GRAPHIC] [TIFF OMITTED] T3040.591

[GRAPHIC] [TIFF OMITTED] T3040.592

[GRAPHIC] [TIFF OMITTED] T3040.593

[GRAPHIC] [TIFF OMITTED] T3040.594

[GRAPHIC] [TIFF OMITTED] T3040.595

[GRAPHIC] [TIFF OMITTED] T3040.596

[GRAPHIC] [TIFF OMITTED] T3040.597

[GRAPHIC] [TIFF OMITTED] T3040.598

[GRAPHIC] [TIFF OMITTED] T3040.599

[GRAPHIC] [TIFF OMITTED] T3040.600

[GRAPHIC] [TIFF OMITTED] T3040.601

[GRAPHIC] [TIFF OMITTED] T3040.602

[GRAPHIC] [TIFF OMITTED] T3040.603

[GRAPHIC] [TIFF OMITTED] T3040.604

[GRAPHIC] [TIFF OMITTED] T3040.605

[GRAPHIC] [TIFF OMITTED] T3040.606

[GRAPHIC] [TIFF OMITTED] T3040.607

[GRAPHIC] [TIFF OMITTED] T3040.608

[GRAPHIC] [TIFF OMITTED] T3040.609

[GRAPHIC] [TIFF OMITTED] T3040.610

[GRAPHIC] [TIFF OMITTED] T3040.611

[GRAPHIC] [TIFF OMITTED] T3040.612

[GRAPHIC] [TIFF OMITTED] T3040.613

[GRAPHIC] [TIFF OMITTED] T3040.614

[GRAPHIC] [TIFF OMITTED] T3040.615

[GRAPHIC] [TIFF OMITTED] T3040.616

[GRAPHIC] [TIFF OMITTED] T3040.617

[GRAPHIC] [TIFF OMITTED] T3040.618

[GRAPHIC] [TIFF OMITTED] T3040.619

[GRAPHIC] [TIFF OMITTED] T3040.620

[GRAPHIC] [TIFF OMITTED] T3040.621

[GRAPHIC] [TIFF OMITTED] T3040.622

[GRAPHIC] [TIFF OMITTED] T3040.623

[GRAPHIC] [TIFF OMITTED] T3040.624

[GRAPHIC] [TIFF OMITTED] T3040.625

[GRAPHIC] [TIFF OMITTED] T3040.626

[GRAPHIC] [TIFF OMITTED] T3040.627

[GRAPHIC] [TIFF OMITTED] T3040.628

[GRAPHIC] [TIFF OMITTED] T3040.629

[GRAPHIC] [TIFF OMITTED] T3040.630

[GRAPHIC] [TIFF OMITTED] T3040.631

[GRAPHIC] [TIFF OMITTED] T3040.632

[GRAPHIC] [TIFF OMITTED] T3040.633

[GRAPHIC] [TIFF OMITTED] T3040.634

[GRAPHIC] [TIFF OMITTED] T3040.635

[GRAPHIC] [TIFF OMITTED] T3040.636

[GRAPHIC] [TIFF OMITTED] T3040.637

[GRAPHIC] [TIFF OMITTED] T3040.638

[GRAPHIC] [TIFF OMITTED] T3040.639

[GRAPHIC] [TIFF OMITTED] T3040.640

[GRAPHIC] [TIFF OMITTED] T3040.641

[GRAPHIC] [TIFF OMITTED] T3040.642

[GRAPHIC] [TIFF OMITTED] T3040.643

                                 <all>

</pre></body></html>
